<html>
<title> - UNITED STATES POLICY IN SIERRA LEONE</title>
<body><pre>[Senate Hearing 106-882]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 106-882

 
                  UNITED STATES POLICY IN SIERRA LEONE

=======================================================================

                       HEARING AND PUBLIC MEETING

                               BEFORE THE

                    SUBCOMMITTEE ON AFRICAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                            OCTOBER 11, 2000

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


                    U.S. GOVERNMENT PRINTING OFFICE
69752- CC                   WASHINGTON : 2001




                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
CHUCK HAGEL, Nebraska                PAUL S. SARBANES, Maryland
GORDON H. SMITH, Oregon              CHRISTOPHER J. DODD, Connecticut
ROD GRAMS, Minnesota                 JOHN F. KERRY, Massachusetts
SAM BROWNBACK, Kansas                RUSSELL D. FEINGOLD, Wisconsin
CRAIG THOMAS, Wyoming                PAUL D. WELLSTONE, Minnesota
JOHN ASHCROFT, Missouri              BARBARA BOXER, California
BILL FRIST, Tennessee                ROBERT G. TORRICELLI, New Jersey
LINCOLN D. CHAFEE, Rhode Island
                   Stephen E. Biegun, Staff Director
                 Edwin K. Hall, Minority Staff Director

                                 ------                                

                    SUBCOMMITTEE ON AFRICAN AFFAIRS

                    BILL FRIST, Tennessee, Chairman
ROD GRAMS, Minnesota                 RUSSELL D. FEINGOLD, Wisconsin
SAM BROWNBACK, Kansas                PAUL S. SARBANES, Maryland

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page

Akwei, Adotei, African Advocacy Director, Amnesty International 
  USA, Washington, DC............................................    25
    Prepared statement...........................................    26
Reno, Dr. William, Associate Professor of Political Science, 
  Northwestern University, Evanston, IL..........................    24
Rice, Hon. Susan E., Assistant Secretary of State for African 
  Affairs, Department of State, Washington, DC...................     4
    Prepared statement...........................................     7

                                 (iii)

  

 
                  UNITED STATES POLICY IN SIERRA LEONE

                              ----------                              


                      WEDNESDAY, OCTOBER 11, 2000

                               U.S. Senate,
                   Subcommittee on African Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:10 a.m. in 
room SD-419, Dirksen Senate Office Building, Hon. Bill Frist 
(chairman of the subcommittee) presiding.
    Present: Senators Frist and Feingold.
    Senator Frist. Good morning. The Senate Foreign Relations 
Committee agenda item today is the United States policy in 
Sierra Leone. I would like to open and begin by outlining a few 
of the issues the ranking member and I are addressing in the 
hearing today.
    The United States has committed its continued support to a 
deeply troubled peacekeeping operation in Sierra Leone. The 
United States is not just a supporter. The United States is 
also an architect of the United Nations operations that has 
proven inadequate, if not inappropriate to address the harsh 
realities of the evil acts and the desires which have driven 
and fueled the destruction of a country.
    At our direction, UNAMSIL was transformed into a 
peacekeeping operation when it was obvious there was no 
sustainable peace. That decision required what was nothing less 
than a deliberate and willful discounting of the savage 
recidivist behavior of the Revolutionary United Front [RUF].
    It should hardly have come as a surprise, then, when the 
poorly equipped, poorly trained, and unmotivated UNAMSIL came 
into direct confrontation with the RUF that was not interested 
in peace, the U.N. was humiliated, the RUF emboldened, and the 
entire future of U.N. peacekeeping in Africa has been called 
into question. That is to say nothing of the horrific 
consequences for Sierra Leone itself.
    A peacekeeping mission requires a peace agreement and thus 
the Lome Accord peace agreement manifested. The Lome Accord has 
failed Sierra Leone. It depended on the goodwill of evil men. 
Now that the peace accord and the peacekeeping mission have 
shown that they can neither provide nor sustain peace, the 
United States and the other nations which are supporting 
efforts to bring peace in Sierra Leone now face a fundamental 
decision as to whether the agreement is still valid, and what 
UNAMSIL's mission will be.
    Simply, do we recognize the RUF as a legitimate party to a 
valid peace accord, or do we view them as rebels attacking the 
legitimate Government of Sierra Leone and brutalizing its 
people? This is a critical decision for Sierra Leone, for the 
United Nations, and for the United States, whether to fight, to 
negotiate, or to simply wait for the RUF and its sponsors to 
act again and thus make the decisions for us.
    I believe the United States should remain committed to 
supporting a peace mission in Sierra Leone. Simply pulling the 
plug is not a viable option--even for those who do not believe 
we should have committed in the first place, we are deeply 
involved now and we bear much of the responsibility for how the 
international community's response to the violence in Sierra 
Leone has been conducted thus far.
    Yet Congress is very skeptical of the way our commitment to 
Sierra Leone has been handled. No clearly understood rationale 
about our decisionmaking process exists to counter the 
questions raised in the press and by the Government of Sierra 
Leone regarding the judgment of American officials and 
policymakers, and the decisions to push for negotiations with 
the RUF rather than pursue them militarily.
    The consequences and doubts about our involvement in Sierra 
Leone thus far is not limited to a weariness of the history of 
the United States' commitment. It is a weariness of any 
commitment to Sierra Leone whatsoever. We cannot afford such 
questions and doubts at such a pivotal time. The war is 
seemingly about to spread to Guinea. The Congress is in 
deliberation about next year's peacekeeping funding, and the 
United States itself faces a change in government.
    Looking forward, we do not have a clear idea of exactly 
what the United States has committed to with respect to 
UNAMSIL. Fundamental questions persist regarding what their 
goal will be, whether they will engage the RUF or, again, be 
there under the pretense of keeping a peace that does not 
exist. Additionally, we do not have a clear idea of how the 
United States and the United Nations plans to address the 
critical element in the continuation of the war, the 
involvement of Liberia and its President, Charles Taylor.
    In short, we need to be very clear about what the United 
States goals are or will be in Sierra Leone. We require a clear 
justification of them, the means by which those goals will be 
achieved, and what we can expect the United States obligation 
to that mission will be both financially and in terms of 
duration as we prepare for a new administration and a new 
Congress. It is imperative that we at the very least build the 
groundwork for a consistent, understood, and reasonable policy 
toward Sierra Leone.
    The United States has the potential to do much good or 
great harm in Sierra Leone in the coming months. We need to 
look back only a year or two to remind ourselves what is at 
stake, and exactly how appalling it can get. As a consequence, 
an achievable and widely supported mission is critically 
important for the United States. It is essential for Sierra 
Leone.
    Senator Feingold.
    Senator Feingold. Thank you very much, Chairman Frist, for 
holding this very important and timely hearing, and I want to 
thank Assistant Secretary Rice, Dr. Reno, and Mr. Akwei for 
being here today.
    In a recent press report I read that the civil war in 
Sierra Leone has forced more than one quarter of Sierra Leone's 
4.2 million people from their homes, and that the country now 
has an average life expectancy of about 26. The war in Sierra 
Leone has lasted for so long and taken such a terrible toll 
that I am afraid that many observers have become numb to the 
tragedy.
    It took the hostage crisis of the spring to refocus serious 
attention on the issue. In the wake of that crisis, a series of 
accusations and recriminations have surfaced, and a number of 
questions about the appropriate direction for United States 
policy have arisen, and so this hearing is a valuable 
opportunity for all of us to clear the air and to complete and 
correct the record. Most importantly, it is an opportunity to 
clarify U.S. policy toward Sierra Leone today.
    As the U.S. begins its training program for West African 
troops and seeks to influence the shape and mandate of UNAMSIL 
in the year ahead, we must all recognize that we are deeply 
involved in this issue, and that the United States history in 
the region has a bearing on United States responsibilities 
today, and that the nature of U.S. policy has a direct bearing 
on the security of civilians on Sierra Leone.
    Mr. Chairman, responsibilities are certainly not limited to 
the administration. I believe that Congress also bears a 
certain set of responsibilities with regard to our Sierra Leone 
policy. Earlier this year, I joined with Senator Frist, Senator 
Helms, and Senator Biden to pass a resolution calling on the 
administration to make accountability for human rights abuses a 
top priority in Sierra Leone. We were right to emphasize the 
need for justice and the critical importance of distinguishing 
legitimate from illegitimate actors in the region.
    I believe that our call for accountability should now be 
accompanied by a willingness to specifically support the 
special war crimes court for Sierra Leone currently being 
negotiated between the United States and the Government in 
Freetown. Ultimately, it is clearly in the United States' 
interest to stop the trend emerging in West Africa wherein 
violent regimes with really no political program beyond 
consolidating their own power and wealth hold entire civilian 
populations hostage in order to win concessions from the 
international community. These regimes sustain themselves 
through criminal activity and quickly establish links with some 
of the most odious and dangerous actors on the international 
stage.
    How, specifically, the United States is to pursue this 
interest is the overarching question at hand, so I look forward 
to the testimony and to the opportunity to directly and clearly 
discuss the issues at stake in Sierra Leone.
    Thank you, Mr. Chairman.
    Senator Frist. Thank you, Senator Feingold, and I also wish 
to welcome all three of our witnesses today. We will have two 
panels. Hon. Susan Rice, Assistant Secretary of State, will 
begin followed by our second panel. Welcome, Secretary Rice.

 STATEMENT OF HON. SUSAN E. RICE, ASSISTANT SECRETARY OF STATE 
    FOR AFRICAN AFFAIRS, DEPARTMENT OF STATE, WASHINGTON, DC

    Ms. Rice. Thank you very much, Mr. Chairman and Senator 
Feingold. Let me begin by thanking both of you for putting 
together this hearing and for inviting me to testify on behalf 
of the administration. I welcome very much this opportunity to 
address the questions you raise and to clarify the record.
    I also want to take this opportunity, cognizant of the fact 
that this may prove to be the last subcommittee hearing of this 
Congress, to thank you both personally and on behalf of the 
administration for your leadership on the full spectrum of 
African issues. It has been a joy to work with both of you, and 
I am grateful for the opportunity and for your leadership.
    If I might begin by noting that there have been few civil 
conflicts during the past decade as brutal and complex as this 
one, and I want to commend both of you for your committee's 
interest, which we share, in bringing peace and justice to the 
tragic country of Sierra Leone.
    We have many important interests in achieving peace in 
Sierra Leone. Continued instability in Sierra Leone will have 
long-term effects on political and economic development 
throughout the subregion. The conflict has drawn in several 
neighboring States, most recently Guinea, and threatens West 
Africa's stability while draining it of its precious human and 
natural resources.
    The stakes are therefore high, not only for Sierra Leone's 
own long-suffering people, but for all of West Africa. With the 
RUF still in control of large portions of Sierra Leone, a 
significant proportion of the population remains subject to its 
reign of terror. This continued control by the RUF makes it 
impossible for relief organizations to provide food and 
assistance to thousands of victims of the RUF, including those 
that have been raped and mutilated.
    The people under the RUF's power also do not have access to 
the most basic social services, including health care and 
education. As a result, they are condemned to lives of fear, 
sickness, and poverty. Obviously, we agree we cannot allow 
these abominable conditions to endure. That's why it's so 
important that the United States continue to support the 
elected democratic Government of Sierra Leone's efforts to 
extend its authority into these areas of lawlessness and 
terror.
    Only when the rule of law is extended to all of Sierra 
Leone's territory and those most responsible for the horrendous 
atrocities are held fully accountable before a court of law 
will the population experience the freedom and the confidence 
necessary to rebuild their war-ravaged country. It is also 
essential to choke the diamond revenues fueling this conflict 
as the RUF continues to trade diamonds for guns with Liberian 
President Charles Taylor and others.
    The United States has a keen interest in successful 
implementation of the United Nations Security Council 
Resolution 1306. We sponsored the resolution to ban the trade 
in rough diamonds from Sierra Leone, except those that have a 
certificate of origin issued by the Government of Sierra Leone.
    We also remain committed to the return of full control of 
the diamond mines to the elected Government of Sierra Leone. 
Critical to achieving lasting peace in Sierra Leone is ensuring 
that the U.N. peacekeeping mission, UNAMSIL, succeeds. If it is 
to succeed, UNAMSIL must be strengthened. We thus are 
supporting an increase in its forces from the current level of 
approximately 13,000 troops to at least 20,500 troops, and we 
are working hard with the U.N. and others to obtain the 
necessary commitments from potential troop contributors.
    Equally critical is ensuring that UNAMSIL has the mandate 
as well as the means to accomplish its goals. An increase in 
the number of troops without any strengthening of its mandate 
will not produce the desired results. Thus, we will continue to 
work for a new UNAMSIL resolution that provides a mandate to 
support the Sierra Leonean Army and the government in 
compelling RUF compliance with its obligations to disarm, 
demobilize, and reintegrate into society.
    We have also begun to help train and equip seven battalions 
of West African troops to bolster the U.N. forces already 
deployed in Sierra Leone. With increased capacity, UNAMSIL 
should be able to gather with the Sierra Leonean Army, now 
being trained by the British, to help the legitimate government 
extend its control over all major population centers, its 
borders, and the diamond-producing areas.
    Restoring peace and stability to Sierra Leone also requires 
bringing a halt to Liberian President Charles Taylor's support 
and patronage of the RUF. In July, Under Secretary of State Tom 
Pickering put Taylor plainly on notice that he must sever his 
support for the RUF and the illicit diamond trade or face the 
consequences. He made plain to President Taylor that we will 
take the necessary measures, including sanctions, to ensure 
that the Government of Liberia ceases aiding the RUF.
    Today, the White House will announce that we will impose 
travel sanctions on Charles Taylor, all members of the Liberian 
senior government officials, and their families for their 
support of the RUF. Further sanctions, should they be 
necessary, are under active consideration, and we call upon the 
international community and, in particular, Liberia's regional 
neighbors, to join us in this effort in order to maximize its 
effectiveness.
    Mr. Chairman, as you know, the RUF instigated the current 
crisis. From mid-1998 until late 1999 the RUF and its insurgent 
allies swept back from the east and through the north and then 
parts of the west of Sierra Leone before attacking Freetown 
itself in early January 1999. While the forces of ECOMOG 
eventually drove the RUF out of Freetown, it was also clear 
that the RUF were a force that could not be defeated by ECOMOG 
alone, nor did the international community appear to have both 
the necessary will and the ability to defeat the RUF 
militarily.
    For our part, we had already spent our entire allotted 
voluntary peacekeeping budget for Africa on Sierra Leone. In 
fact, since 1991, the United States has spent well over $110 
million supporting ECOWAS peacekeeping missions, first in 
Liberia, and later in Sierra Leone. The United States has been 
and remains far and away the largest donor to ECOMOG.
    Moreover, Mr. Chairman, as you will recall there was also 
considerable skepticism among some in Congress about providing 
further assistance to ECOMOG under the military regime then 
governing Nigeria, which had provided the bulk of the West 
African troops trying to keep the rebel forces in check. Even 
after the brutal RUF attack on Freetown in January 1999, 
several congressional holds were placed on our notifications of 
intent to program voluntary peacekeeping funds intended to 
support the ECOWAS troops.
    Later, in 1999, the newly elected democratic government in 
Nigeria, now accountable to its people, decided to withdraw its 
troops from Sierra Leone absent a massive infusion of resources 
from the international community. This meant that a military 
solution, the effective defeat of the RUF, was no longer a 
realistic option. To stop the killing, the plain truth is a 
negotiated solution became essential.
    Against this backdrop, the regional States sponsored the 
Lome discussions that led to a cessation of hostilities 
agreement in May 1999. Representing the United States, Rev. 
Jesse Jackson spent 1 day in Lome, and on that day, May 18, 
1999, he, with others, succeeded in helping achieve that 
cessation of hostilities agreement.
    The Lome agreement itself, which followed 2 months later, 
in July 1999, was the result of regional peace negotiations 
sponsored by the Economic Community of West African States 
between the Government of Sierra Leone and the RUF. Those talks 
were chaired by the then chairman of the ECOWAS, the Foreign 
Minister of the Government of Togo. They were supported by the 
United Nations, the Commonwealth, the Organization of African 
Unity, the United States, Great Britain, and others.
    Following the Lome agreement, ECOMOG remained in Sierra 
Leone to maintain security, but Nigeria, under the 
democratically elected government, signalled that it could not 
continue to bear the cost of that mission alone. In the absence 
of a great deal more assistance to ECOMOG, the United Nations 
would have to take ECOMOG's place. The United States was unable 
to assume that financial burden alone, since we have available 
less than $15 million a year to fund all non-U.N. peacekeeping 
missions in Africa. No other donor was willing to make any 
significant contributions to ECOMOG, as has been the case over 
the past decade.
    Senator Frist. Secretary Rice, if I could ask you to 
summarize in about 7 minutes or so, then we will come back and 
discuss in questions and answers.
    Ms. Rice. I will do that, thank you.
    The United Nations Security Council in October 1999 
authorized a 6,000-strong peacekeeping mission for Sierra Leone 
to replace the small military observer group, UNAMSIL, and 
Nigeria agreed to contribute troops to UNAMSIL and to continue 
playing a leading role.
    While the Lome agreement established a domestic, but not an 
international amnesty, and allowed limited RUF nonelected 
representation in the government, it was an agreement freely 
negotiated by the Sierra Leonean parties themselves. If the 
Lome agreement's provisions had been respected by the RUF, 
Sierra Leoneans would be well on their way now to rebuilding 
their impoverished and war-ravaged country.
    The Lome agreement, like many others before it, was a 
calculated risk that did not play out as the people of Sierra 
Leone, the international community, or the United States would 
have hoped. Some may now second-guess the inclusion of the 
rebels in any kind of peace process, given their grisly record, 
but this would not be realistic, given the circumstances. Nor 
was it the first time that rebels have taken part in peace 
talks after committing atrocities. Mozambique, Guatemala, and 
El Salvador, to name just three countries, have stable, 
democratic governments following peace arrangements worked out 
between rebels and such governments.
    Mr. Chairman, the people of Sierra Leone would not have us 
forget that for almost one year the atrocities largely stopped. 
Some inaccessible areas were opened, and more than 20,000 
combatants were disarmed. When the RUF then attacked the U.N. 
peacekeepers sent to oversee the implementation of the Lome 
peace accord, they violated the will of the Sierra Leonean 
people and squandered the opportunity for peace.
    The regional States, most in the international community 
and the United States recognize now that, given the failure of 
the RUF to fulfill its obligations under the Lome Accord, only 
increased pressure on the rebels can reliably end this conflict 
and the suffering of the people of Sierra Leone. We hope, 
therefore, that Congress will make available adequate funding 
to support the United Nations peacekeeping force already 
deployed in Sierra Leone, and its augmentation.
    In addition, we are asking Congress to support the training 
and equipping of the seven West African battalions to augment 
UNAMSIL. Their role will be critical alongside the Sierra 
Leonean Army in putting military pressure on the RUF to disarm 
and cease to be a military threat to the people of Sierra 
Leone.
    We are also seeking your support for the necessary 
resources to build accountability through the creation of the 
independent special court for Sierra Leone which we have 
championed to bring justice to those most responsible for the 
atrocities. We in the administration, and I trust you, Senator 
Frist and Senator Feingold, remain committed to using all the 
means that are available to us to help the people of Sierra 
Leone break the cycle of violence plaguing their country. We 
must continue to stand together with the West African regional 
States and the United Nations to achieve that goal.
    Thank you very much.
    [The prepared statement of Ms. Rice follows:]

                Prepared Statement of Hon. Susan E. Rice

              ACHIEVING PEACE AND JUSTICE IN SIERRA LEONE
    Mr. Chairman, Committee Members, thank you for inviting me today to 
testify on Sierra Leone. There have been few civil conflicts during the 
past decade as brutal and complex as this one, and I commend you, Mr. 
Chairman, and the members of your committee for our shared interest in 
trying to bring peace and justice to this tragic country. As I have 
said on previous occasions, we remain fully committed to working with 
Congress to help ease the suffering of the Sierra Leonean people and 
help them find a lasting solution to this crisis.
                   THE THREAT OF REGIONAL INSTABILITY
    Mr. Chairman, we have important interests in achieving peace in 
Sierra Leone. Continued instability in Sierra Leone will have serious 
long-term effects on political and economic development throughout the 
sub-region. The conflict has drawn in several neighboring countries and 
threatens West Africa's stability while draining it of precious 
resources. The stakes are therefore high, not only for Sierra Leone's 
own long-suffering people, but also for all of West Africa.
    Currently, Sierra Leone is divided. Effective government control is 
limited to Freetown and the Lungi Peninsula and other areas in the 
South--thanks mainly to the presence of troops from the United Nations 
Mission in Sierra Leone (UNAMSIL) and the United Kingdom in those 
areas. The Revolutionary United Front (RUF) continues to launch 
numerous small-scale attacks. UNAMSIL patrols roads between its 
peninsular bases and its positions at Kenema, Bo, and Daru. There 
appears at present to be an uneasy tactical pause in RUF military 
operations.
    But as long as the conflict continues, there is a risk that it will 
spill over even more dramatically into neighboring countries and create 
more instability and human suffering. Liberia has been involved in this 
conflict almost from the beginning, and now Guinea is victim to cross-
border incursions by RUF elements and their allies. This has led to 
increased domestic instability within Guinea, which is already hosting 
nearly half a million refugees from both Sierra Leone and Liberia. An 
estimated 5,000 of these refugees have crossed into Guinea since 
renewed violence erupted in May.
                      DIRE HUMANITARIAN CONDITIONS
    With the RUF still in control of large portions of Sierra Leone, a 
significant percentage of the population remains subject to its reign 
of terror. This continued control makes it impossible for relief 
organizations to provide food and assistance to thousands of victims of 
the RUF, including those who have been raped and mutilated. The people 
under the RUF's power also do not have access to the most basic social 
services, including health care and education. As a result, they are 
condemned to lives of fear, sickness, and poverty. We cannot allow 
these abominable conditions to endure.
                    EXTENDING DEMOCRATIC GOVERNANCE
    That is why it is so important that the United States continue to 
support the elected democratic government of Sierra Leone's efforts to 
extend its authority into these areas of lawlessness and terror. Only 
under accountable, responsible, democratic governance can these human 
rights abuses be curtailed and minimal living standards reintroduced. 
Only when the rule of law is extended to all of Sierra Leone's 
territory and those most responsible for the horrendous atrocities are 
held accountable before a court of law will the population experience 
the freedom and the confidence necessary to rebuild their war-ravaged 
country.
    It is also essential to choke the diamond revenues fueling the 
conflict, as the RUF continues to trade diamonds for guns with Liberian 
President Charles Taylor and others. The United States has a keen 
interest in successful implementation of UNSC Resolution 1306, which we 
sponsored, in order to ban trade in rough diamonds from Sierra Leone 
except those that have a certificate of origin issued by the 
Government. We also remain committed to the return of full control of 
the diamond mines to the elected government of Sierra Leone.
         SUPPORTING THE UNITED NATIONS MISSION IN SIERRA LEONE
    Critical to achieving a lasting peace in Sierra Leone is ensuring 
that the UN peacekeeping mission, UNAMSIL, succeeds. But for UNAMSIL to 
succeed it must be strengthened. To this end, we are prepared to 
support a substantial increase in the size of the force and the 
strength of its mandate. We support increasing its forces from the 
current level of approximately 13,000 troops, to at least 20,500 and 
are working hard to obtain the necessary commitments from potential 
troop contributors.
    Equally critical is ensuring that UNAMSIL has the mandate, as well 
as the means, to accomplish these goals. An increase in the number of 
troops without any strengthening of its mandate, will not produce 
results. Thus, we will continue to work for a new UNAMSIL resolution 
that provides a mandate to support the Sierra Leone Army in compelling 
RUF compliance with its obligation to disarm, demobilize, and 
reintegrate into society. UNAMSIL's U.S.-trained and equipped West 
African battalions, once deployed, will form a key component of the 
enhanced UNAMSIL, and we expect will play an assertive role in 
countering the RUF. The United States is committed to the success of 
this mission. Furthermore, since Britain's direct military role in 
Sierra Leone and its training of the Sierra Leone Army are critical to 
stabilizing the situation in that country, support for British training 
efforts is also a high priority.
    We have also begun to help train and equip seven battalions of West 
African troops to bolster the UN forces already deployed there. With 
increased capacity, UNAMSIL should be able, together with the Sierra 
Leone Army now being trained by the British, to help the legitimate 
government extend its control over all major population centers, its 
borders, and the diamond producing areas.
                          DEALING WITH THE RUF
    We believe that the RUF must cease to function as a military force. 
There must be early and full disarmament of the RUF through a credible 
and effective Disarmament, Demobilization and Reintegration (DDR) 
process. A renewed DDR program should include immediate, permanent 
physical separation of RUF combatants from their commanders.
    The RUF must not interfere with the Government of Sierra Leone's 
and UNAMSIL's freedom of movement in Sierra Leone as UNAMSIL assists 
the Sierra Leone Army in the progressive extension of the GOSL's 
authority throughout the country. The RUF must also relinquish control 
of all diamond areas and key transportation and communication routes to 
the GOSL.
    Furthermore, we believe the RUF should not be rewarded by being 
guaranteed a place in the government. However, as an incentive to end 
the conflict, individual, disarmed/demobilized members of the RUF who 
are not guilty of war crimes or atrocities should not be prohibited 
from entering the political life of the country. But the RUF must also 
respect the authority of the Special Court.
               THE ORIGINS OF THE CRISIS IN SIERRA LEONE
    It is important to understand the history of the conflict in Sierra 
Leone prior to the Lome Agreement of July 1999.
    The Revolutionary United Front began its assault against the 
central government of Sierra Leone in March 1991 with a two-pronged 
cross-border incursion from Liberia. With interruptions, fighting has 
continued ever since.
    In May 1997, President Kabbah's democratically-elected government 
was overthrown by a military coup and moved to Conakry, Guinea. The 
leaders of the military coup invited the RUF to join them in ruling the 
country under the Armed Forces Revolutionary Council (AFRC). President 
Kabbah and his government were only able to return to Freetown in March 
1998 after being restored to power following the military intervention 
by the Nigerian-led regional peacekeeping forces (ECOMOG) of the 
Economic Community of West African States (ECOWAS).
    Over the course of 1998, the RUF and its rebel allies, the former 
members of the AFRC and of the Sierra Leone Army who supported them, 
regrouped and with external assistance funneled primarily through 
Liberia, avoided full defeat by ECOMOG and instead regained the 
initiative.
    The United States was able to provide ECOMOG with logistics 
assistance through an initial $3.9 million contract with Pacific 
Architects and Engineers (PA&E) and their subcontractor International 
Charters Incorporated (ICI). The Netherlands provided 80 trucks that 
were transported from Liberia where they had been initially delivered 
to ECOMOG.
    The European Union at the time was reluctant to assist ECOMOG while 
Sani Abacha was still president of Nigeria. The financial burden for 
combatting the RUF in Sierra Leone thus fell largely on Nigeria, with a 
reported cost of about $1 million per day.
    From mid-1998 until late 1999, the RUF and its insurgent allies 
swept back from the east through the north and then parts of the west 
of Sierra Leone before attacking Freetown itself in early January 1999. 
While the forces of ECOMOG eventually drove the RUF back out of 
Freetown, it was also clear that the RUF were a force that could not be 
defeated by ECOMOG alone. Nor did the international community appear to 
have both the will and the ability to defeat the RUF militarily.
    For our part, we had already spent our entire allotted voluntary 
peacekeeping budget for Africa on Sierra Leone. In fact, since 1991 we 
have spent well over $110 million supporting ECOWAS peacekeeping 
missions in Liberia and Sierra Leone. The United States was far and 
away the largest donor to ECOMOG. Moreover, there was also considerable 
skepticism among some in Congress about providing further assistance to 
ECOMOG under the military regime then governing Nigeria, which had 
provided the bulk of the West African troops trying to keep the rebel 
forces in check.
    Even after the brutal RUF attack on Freetown in January 1999, 
several holds were placed on our notifications of intent to program 
voluntary peacekeeping funds intended to support the ECOWAS troops. 
Later in 1999, the newly-elected democratic government in Nigeria, now 
accountable to its people, decided to withdraw its troops absent a 
massive infusion of resources from the international community. This 
meant that a military solution--the effective defeat of the RUF--was no 
longer a realistic option. To stop the killing, a negotiated solution 
became essential.
    Against this backdrop, the regional states sponsored the Lome 
discussions that led to a cease-fire in May 1999. Representing the 
United States, Reverend Jesse Jackson spent one day in Lome and on that 
day, May 18, 1999, succeeded in helping achieve a cessation of 
hostilities agreement. The Lome peace agreement that followed two 
months later in July 1999 was the result of regional peace negotiations 
sponsored by the Economic Community of West African States between the 
Government of Sierra Leone and the RUF, which were supported by the 
United Nations, the Commonwealth, the Organization of African Unity, 
the United States, Great Britain, and others. The Foreign Minister of 
Togo oversaw these negotiations.
    Following the Lome Agreement, ECOMOG remained in Sierra Leone to 
maintain security, but Nigeria, under the democratically elected 
government of President Obasanjo signaled that it could not continue 
bearing the cost of this mission alone. In the absence of a great deal 
more direct assistance to ECOMOG, the United Nations would have to take 
ECOMOG's place. The United States was unable to assume that burden 
alone since we have available less than $15 mIllion a year to fund non-
UN peacekeeping missions in Africa. No other donor was willing to make 
any significant contributions to ECOMOG.
    The UN Security Council in October 1999 authorized a 6,000-strong 
peacekeeping mission for Sierra Leone (UNAMSIL) to replace the very 
small military observer group (UNOMSIL) Nigeria agreed to contribute 
troops to UNAMSIL and continue to play a leading role in UNAMSIL 
leadership.
    Unfortunately, the RUF flaunted its commitments and violated in the 
most horrific ways the Lome agreement. Their reprehensible actions left 
Sierra Leoneans still searching for peace. We welcome the capture of 
Foday Sankoh and look forward to the day he stands before justice in a 
court of law. But we also recognize that his trial alone will not bring 
peace--there is much work that must still be done on the ground--by a 
strengthened UNAMSIL and by the government and army and people of 
Sierra Leone.
    The Lome accord was a peace agreement widely welcomed by the people 
of Sierra Leone. As many members of Sierra Leonean civil society 
stressed to Secretary Albright a year ago, the people of Sierra Leone 
were desperate for peace--even if it meant justice were to be deferred. 
Peace meant to them that the horrors would finally stop, lives could be 
rebuilt, and that the diamond mines could revert to the control of the 
government. For the RUF, it was their best chance to lay down their 
arms, become a constructive political player in Sierra Leone, and 
escape further world ostracism. While the agreement established a 
domestic, but not international amnesty, and allowed limited RUF non-
elected representation in the government, it was an agreement that was 
freely and willingly negotiated by the Sierra Leonean parties 
themselves. If the Lome agreement's provisions had been respected by 
the RUF, Sierra Leoneans would be well on their way by now to 
rebuilding their impoverished and war-ravaged country.
    The Lome agreement, like many others elsewhere before it, was a 
calculated risk that didn't play out as the people of Sierra Leone, the 
international community, or the United States would have hoped. Some 
may now second-guess the inclusion of the rebels in any kind of peace 
process, given their grisly record. But this would not be realistic, 
given the circumstances. Nor was it the first time that rebels have 
taken part in peace talks after committing atrocities. Mozambique, 
Guatemala, and El Salvador, to name just three countries, have stable 
democratic governments following peace arrangements worked out between 
one or more sides once employing terror tactics against civilian 
populations.
    The people of Sierra Leone would not have us forget that for almost 
one full year the atrocities largely stopped, some inaccessible areas 
were opened, and more than 20,000 combatants were disarmed.
    When the RUF then attacked the UN peacekeepers sent to oversee the 
implementation of the Lome peace accord, they violated the will of the 
Sierra Leonean people and squandered the opportunity for peace.
                       CURRENT U.S. POLICY GOALS
Help the Government of Sierra Leone gain control of territory
    We support a UN Security Council resolution that would forge a 
robust UNAMSIL operation. This resolution will likely come up in 
December. In the interim, we are working with current and potential 
troop contributors to secure adequate and capable troops to help 
restore peace and stability to Sierra Leone. An augmented UNAMSIL must 
have the mandate and the means to support the Sierra Leone Army in 
compelling RUF compliance with its obligation to disarm, demobilize, 
and reintegrate into society. U.S.-trained and equipped West African 
battalions will form a key component of the enhanced UNAMSIL mission 
and will be expected to play an assertive role in countering the RUF. 
In addition, we place a high priority on supporting the direct military 
role of the United Kingdom in Sierra Leone and its training of the 
Sierra Leone Army.
Promote Accountability
    The Sierra Leone Independent Special Court, whose establishment we 
championed, must now become an instrument for swift and exemplary 
justice for those members of the RUF and related insurgent groups who 
bear the greatest responsibility for violations of international 
humanitarian law and related Sierra Leonean law.
    Other Sierra Leonean transgressors could be tried in Sierra Leonean 
domestic courts or appear before the Truth and Reconciliation 
Commission.
Liberia and the RUF
    Liberian President Charles Taylor's support and patronage of the 
RUF is intolerable and must end. In July, Under Secretary Pickering put 
Taylor plainly on notice that he must sever his support for the RUF and 
the illicit diamond trade or face the consequences. He made plain to 
President Taylor that we will take the necessary measures, including 
sanctions, to ensure that the Government of Liberia ceases aiding the 
RUF.
    Today, the President announced that we will impose travel sanctions 
on President Taylor, other Liberian government officials, and their 
family members for their support of the RUF. Further sanctions, should 
they be necessary, are under active consideration. We call upon the 
international community and, in particular, Liberia's regional 
neighbors to join in this effort to maximize its effectiveness.
    Our intent is to raise the costs to Taylor of his support for the 
RUF by limiting his freedom of action, denying him resources, and 
exposing as widely as possible to world opinion his destructive role in 
the region. There should be no mistaking our position: we recognize the 
corrosive role that Taylor is playing in the tragedy of Sierra Leone 
and the spreading instability in the region, and we are committed to 
bringing his destructive influence to an end.
                      STRATEGY AND IMPLEMENTATION
    Our strategy to bring peace and stability to Sierra Leone involves 
ongoing consultation and coordination with the UK, the GOSL, key 
regional states, and others at the UN in order to project and win 
support for our goals. Accordingly, our approach holds the RUF to its 
Lome Agreement obligations to disarm and demobilize while denying the 
RUF the political benefits it would have enjoyed had it honored the 
original agreement.
    We should expect bids from the RUF for a ceasefire or even a new 
negotiated settlement, but any such bids must be treated with the 
greatest skepticism. There should be no further concessions made to 
these rebels and their allies. Although it may be impossible to defeat 
the RUF purely by military means, we must insist that the Government of 
Sierra Leone and all others hold firm against cease-fires or negotiated 
settlements that leave the RUF in control of any territory or give it a 
material basis for again challenging the Government of Sierra Leone's 
authority.
    As I have noted, our primary ``tools'' in this effort are to harden 
and augment UNAMSIL, equip and train West African troops, support the 
United Kingdom's training mission for the Sierra Leone Army, curb the 
illicit diamond trade, increase pressure on Liberian President Taylor 
to stop supporting and directing the RUF, establish the Independent 
Special Court, and help the Government of Sierra Leone in the 
reconstruction of Sierra Leone's institutions.
                             A NEW APPROACH
    The regional states, most in the international community, and the 
United States recognize that, given the failure of the RUF to fulfill 
its obligations under the Lome peace accord, only increased pressure on 
the rebels can reliably end this conflict and the suffering of the 
people of Sierra Leone. We call upon Congress to make adequate funding 
available to support the United Nations peacekeeping force already 
deployed in Sierra Leone.
    We have already notified Congress of our intention to support a 
Security Council resolution that would strengthen UNAMSIL's mandate and 
increase its size from 13,000 to 20,500 troops. To this end, we are 
actively engaged in supporting United Nations Secretary General Kofi 
Annan's efforts to identify and recruit additional troops for UNAMSIL. 
In addition to asking Congress to support this strengthened UNAMSIL, we 
need congressional support for equipping and training up to seven West 
African battalions for effective service in UNAMSIL.
    We are also working with our British allies to assist their 
training mission for the Sierra Leone Army. Finally, we will seek 
congressional support for the necessary resources to build 
accountability through the creation of the Independent Special Court 
for Sierra Leone to bring to justice those most responsible for the 
atrocities perpetrated on its people. It will be critical in 
establishing and operating the Independent Special Court for a number 
of years, that sufficient and sustained voluntary funding be 
contributed by the international community, including the United 
States.
    Mr. Chairman, we in the administration are committed to using all 
the means that are available to us to help the people of Sierra Leone 
break the cycle of violence and impunity plaguing their country. We 
must stand together with the West African regional states and the 
United Nations to achieve that goal.

    Senator Frist. Thank you, Secretary Rice, and on behalf of 
the subcommittee I do want to thank you for really an 
outstanding relationship, one to the other, over the past 
congressional session, and we appreciate your participation and 
the collaboration and discussions both in hearings and outside 
of hearings, which I believe has been very useful to 
establishing our policy and helping others understand our 
policy.
    I will just ask opening questions and, again, I did not 
mean to have you summarize too much, but I do appreciate your 
written statement and obviously it will be made a part of the 
record, and people will have the opportunity to review that in 
further detail.
    There are several lines of questions that I want to begin 
with, and maybe I'll begin with one line, then turn to Senator 
Feingold, and then come back to clarify some of the history so 
that, as we look over the next few months and the next year we 
will know or have established a foundation upon which to build.
    The first I would like to have you elaborate on a bit, 
which in your written statement and in your oral statements you 
touched upon, but I want to actually dissect a little bit 
further, is the Lome history, and what it has meant.
    On October 15 of last year, 1999, speaking about the United 
States role in the formulation of the Lome Accord, you said in 
pretty certain terms that the United States was critical in 
bringing about the agreement.
    On October 18, the Secretary of State echoed your statement 
and indicated that the United States' role was, in fact, quite 
deliberate, and active, and then on June 5 of this year, Philip 
Rieker, the acting spokesman for the Department of State, 
seemingly reversed that and said, ``the United States did not 
pressure anybody to sign this agreement,'' and that the United 
States had not, ``leaned on President Kabbah to open talks with 
the insurgents,'' meaning the RUF.
    There is an apparent contradiction there. Which is it?
    Ms. Rice. Mr. Chairman, quite honestly, I do not see a 
contradiction, but let me relate, as my testimony does, the 
facts. In the first instance, we were present and played an 
important role May 18 in Lome on that single day, when the 
cessation of hostilities agreement was negotiated. Rev. Jesse 
Jackson, the President's Special Envoy for the Promotion of 
Democracy in Africa, represented the administration. He 
happened to be in Ghana at the same time as the African-African 
American summit.
    He left Ghana to spend that 1 day in Lome, playing a role 
alongside the Government of Togo and ECOWAS in achieving that 
cessation of hostilities. That cessation of hostilities stopped 
the killing and the maiming for the most part for a period of 
time, and it committed the two parties, the Government of 
Sierra Leone and the RUF, to begin again a peace negotiation 
that subsequently, 2 months later, resulted in the Lome Accord.
    Reverend Jackson did not return to Lome for the 
negotiations that led to the Lome agreement, and was not part 
of the larger Lome process directly, but the United States was 
present through the person of our Ambassador to Sierra Leone, 
Joe Melrose, and representatives from the U.S. Embassy in 
Sierra Leone, as well as, on an occasional basis, Sylvia 
Fletcher from OTI in USAID.
    The official U.S. role in Lome was as follows. First of 
all, at the request of the Government of Togo, which chaired 
these talks, the United States, alongside representatives of 
the Commonwealth, the OAU, Ghana, Nigeria, the British, were a 
part of a facilitating committee that the Government of Togo 
requested be established. That committee was called upon by the 
Government of Togo to provide thoughts, recommendations, 
positions, proposals for use by the Government of Togo and the 
ECOWAS team in the negotiations.
    USAID and OTI funded three resource people to support the 
Togolese Foreign Minister. One was, I believe, a Nigerian law 
school professor, one was a U.N. attorney, a Ghanaian on leave 
from the United Nations, and one was a retired professor, I 
believe from Howard University, a Congolese national. They 
assisted the Government of Togo in crafting inputs and in 
thinking through elements of the Lome Accord.
    Sylvia Fletcher, whose role has been misrepresented in the 
press, was not part of the facilitating committee, nor was she 
part of this OTI-funded team itself, but she was present for a 
period of time, we believe in June 1999, in Lome.
    So the United States role was alongside a number of 
important other actors, hands-on. It was continuous in the 
person of Ambassador Melrose throughout the negotiation, and we 
played an important role, but obviously not the only role, or 
necessarily a decisive role in trying to bring about a Lome 
Accord, because the killing had continued, and the only way to 
stop it, as I reflected in my testimony, at that stage was 
through a negotiated solution.
    Senator Frist. You indicated, and I quote, ``the cease-fire 
was brokered by a group that included strong American 
leadership,'' with the people you named, Ambassador Joe 
Melrose, and Reverend Jackson, and Reverend Jackson had been 
reported in the press as urging the Sierra Leonean Government 
to reach out to the RUF. Did we or did we not play an 
instrumental role?
    Ms. Rice. In what respect, Mr. Chairman?
    Senator Frist. In both the cease-fire talks, and you say in 
not developing the accord.
    Ms. Rice. As I said, we played an instrumental role on May 
18 in negotiating the cessation of hostilities agreement. That 
agreement stopped the killing. Thereafter, we played an 
important role, along with the United Nations, ECOWAS, the 
Commonwealth, the British, the OAU, through the facilitating 
committee, which I earlier described, in helping the Government 
of Togo formulate elements of the positions that were put to 
the two parties during the negotiating process.
    We also obviously maintained contact throughout the process 
with both parties to the negotiations.
    Senator Frist. Let me close my line of questioning, because 
I have gone through the documents and I have heard what you 
said, but to me there is still this change in accounts of the 
role of the United States in the Lome Accord, and it is almost 
as if we are saying, we brought the horse to water, but we did 
not make it drink. We were involved in the beginning, and we 
blessed the final product, but we in some ways disavow the role 
of what happened in between.
    And the only reason I mention this, because in going 
through it myself and then in listening--the question is, is 
this a credible position for the United States to maintain, and 
how historical is it? This lack of understanding, or lack of 
clarity regarding the United States role has created a 
reluctance and a distrust in Congress which I am constantly 
being exposed to and listening to, and that is why I want to 
pin it down as much as possible.
    The distrust in Congress is not just with the 
administration's policy, but of the much broader mission, and 
if, as we look ahead, or to support our future mission in 
Sierra Leone, and we should, I think we just need to make 
absolutely clear that these issues are cleared up, and 
therefore we can talk about that.
    But what I would like to do is request of you and of the 
Secretary to provide members of this subcommittee and staff 
with either--well, with access and/or copies of the following, 
any State Department cables or other official communications 
from January 1, 1998, to August 1, 1999 relating to 
negotiations to end the war in Sierra Leone.
    Second, any such communications related to the United 
States contact with the United Revolutionary Front.
    Third, any such communications regarding the role of 
Liberia, or any Liberian individuals in relation to the war in 
Sierra Leone.
    And fourth, the itinerary and manifest of United States 
aircraft which acted in support of United States diplomatic 
efforts in West Africa from January 1, 1998 to present.
    So I am formally making that request of you and the 
Secretary, and would await your response at the appropriate 
time. I know that is a lot of documents for you to respond to 
at this point.
    Ms. Rice. Mr. Chairman, I trust you will give that to us in 
writing so we do not miss any portion of it.
    Senator Frist. Yes, I will.
    Ms. Rice. I just feel compelled, with due respect, to come 
back to your premise. I have tried to give you a clear-cut 
rendition of the history. We were involved from May 18 through 
the signing of the Lome Accord. There is no ambiguity about 
that, and no revisionism.
    The reason I take issue with your characterization of a 
contradiction is because we do not accept the assertion that 
the United States pressured or bullied the parties to come to 
agreement. It is one thing to play a role in helping to craft 
and formulate inputs to a negotiation. It is one thing to try 
to support with others in the international community a 
facilitation of the negotiations, but that does not translate 
into pressuring or bullying, and I think the United States role 
in the circumstances is one that was credible; it is one for 
which we do not have any regrets. And, I think, frankly had the 
United States the United Nations, the U.K. and others not stood 
in support of ECOWAS in its efforts to broker that cessation of 
hostilities, it is quite possible that the killing would have 
continued much longer and at much greater cost to the people of 
Sierra Leone.
    Senator Frist. Thank you.
    Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman.
    Secretary Rice, you know that I thoroughly have enjoyed 
working with you, and I look forward to many opportunities in 
the future.
    Secretary Rice, the report language accompanying the Senate 
version of the CJS bill alleged, and I quote, ``certain 
political appointees in the Africa Bureau appear to be actively 
undermining the five-point plan for Sierra Leone transmitted to 
Congress by the United States Ambassador to the United Nations. 
The apparent support of these appointees for Liberia's ill-
concealed attempt to annex the diamond-rich areas of Sierra 
Leone is inconceivable, especially considering the barbaric 
record of Liberia's proxies in Sierra Leone, the Revolutionary 
United Front.''
    Now, as you know, I have tried to follow Sierra Leone 
policy fairly closely, and this statement does not strike me as 
an accurate one. I would like to get your reaction to this 
report language on the record.
    Ms. Rice. Senator, that report language is totally false. 
It is baseless. It is unfair, and quite frankly, it is 
offensive to me and my colleagues and to many in the U.S. 
Government who have given their utmost efforts to try to bring 
a lasting peace to the people of Sierra Leone.
    There is no foundation to the allegation that I or anyone 
in the Africa Bureau or the Department of State ever supported 
Charles Taylor's efforts to annex the diamond mines in Sierra 
Leone. I have no idea where that comes from. On the contrary, 
it has been the Africa Bureau that has led the effort inside 
the U.S. Government to impose the sanctions that I am pleased 
the President will announce today.
    Second, it is the Africa Bureau, under the leadership of 
the Secretary of State, that formulates our policy toward 
Africa, including toward Sierra Leone, and we were instrumental 
in formulating all of the elements that were contained in the 
letter sent by Ambassador Holbrooke to Senator Gregg. So the 
suggestion that there is any daylight or difference of view 
within the administration on this issue is equally false and 
none of us have any idea where that comes from.
    Obviously, also, the suggestion that funding some positions 
in the Bureau of African Affairs be cut strikes us as not only 
unfounded but short-sighted. I do not know how it is conceived 
that we will be able to formulate and implement those policies 
which serve broadbased American political security and economic 
interests in Africa should these cuts, in fact, become reality.
    I have tried to reflect in my testimony the facts as 
accurately as possible, and we hope very much that the 
misimpressions captured in that committee report language will 
in fact be corrected by your statements and statements of 
Senator Frist and what I have put on the record here today.
    Thank you.
    Senator Feingold. Thank you. I noted your announcement 
about the travel sanctions today. How significant are the 
travel sanctions on President Taylor and his associates, and 
are these figures--would they likely have traveled to the 
United States anyway, and why were these restrictions not put 
in place earlier?
    Ms. Rice. Well, Mr. Chairman, I think they are significant, 
particularly significant given the history of the relationship 
between the United States and Liberia. Many in Liberia, 
particularly senior officials and those that are close to the 
leadership, have in the past enjoyed the opportunity to live, 
to work, to travel in the United States. These sanctions will 
deny them and their family members those opportunities.
    We have tried to target these visa restrictions such that 
it does not affect the ordinary citizens of Liberia, but is 
targeted at the government officials and those closest to them 
that have been responsible for the policies which we abhor. We 
have been very plain since the crisis erupted again in May that 
the Liberian Government's involvement in supporting the RUF 
must stop.
    There was a period of time, as you will recall, when, for 
better or for worse, the Government of Liberia was involved 
with the United Nations in trying to secure the release of the 
hostages that had been taken by the RUF. That was a 
particularly sensitive time in which we were trying to minimize 
the risk to the United Nations personnel.
    When Under Secretary Pickering went to the region in July 
he delivered very publicly and very forcefully a warning to 
Charles Taylor, stop the support for the RUF, or face the 
consequences. We have monitored very carefully what has 
happened in the subsequent 2 months, and I will tell you that 
we have not seen any diminution in support for Charles Taylor's 
support for the RUF. We have not seen the positive response we 
would have hoped to, and as a consequence we are moving to 
implement these sanctions today and, as I said, we remain open 
to further measures.
    Senator Feingold. Do you know the last time Mr. Taylor was 
in the United States?
    Ms. Rice. Charles Taylor himself has to my knowledge not 
been here for several years, because he has been concerned 
about his own security and safety, but his family members have 
been here, and many members of his government have traveled 
here frequently.
    Senator Feingold. What exactly is the status of the RUF and 
our policy? Do we view the RUF as a political party?
    Ms. Rice. No. The RUF had the opportunity, had it abided by 
the Lome Accord, to disarm, demobilize, and transform itself 
into a political party. It did not do so. By violating the Lome 
Accord it squandered that opportunity.
    Our view is quite clear. The RUF has to stop functioning as 
a military force. The Government of Sierra Leone needs 
assistance of the international community to regain control of 
its own territory, its population centers, its borders, and its 
diamond mines. The RUF has to be compelled to disarm, 
demobilize, and reintegrate into society; unless and until that 
happens, the RUF will not be in a position, in our estimation, 
as a group to play any legitimate political role in Sierra 
Leonean society.
    Senator Feingold. Let me ask you one more set of questions 
before turning it back to the chairman. I would like you to 
address what portions, if any, of the Lome agreement are still 
viable, and then say a little bit about the current status of 
the American attitude toward the Lome agreement. Are we still 
invested in the agreement? Is there a sense that U.S. 
credibility hinges on salvaging the Lome agreement?
    Ms. Rice. No to both questions, no, we are not vested, and 
no, credibility does not depend on salvaging it. As I said at 
several points during my testimony, the reason the Lome 
agreement failed is because one of the parties in the case, the 
rebels, violated the agreement and flaunted the will of the 
people of Sierra Leone.
    We have had agreements in the past, as I mentioned, in 
places like Mozambique, where terrible rebel groups, RENAMO in 
the case of Mozambique, signed a peace agreement, adherred to 
the peace accord, and actually implemented it. Thus, Mozambique 
is a country, among others, that is stable and is largely 
democratic. Before the floods, it was the fastest-growing 
economy in the world.
    We have had other instances, including Angola, where UNITA 
violated its commitments, and now Sierra Leone, where the RUF 
violated its commitments, where such agreements have failed. 
The issue is now one of trying to muster, with the support of 
others in the international community, the requisite pressure 
on the RUF to compel it to disarm and demobilize.
    Senator Feingold. But the administration's policy is such 
that the Lome agreement is a dead letter?
    Ms. Rice. Senator, I think the Lome agreement is in large 
part a thing of the past. The elements of it that no longer 
apply include the amnesty for those that violated the 
agreement, the opportunity to play a role within the Government 
of Sierra Leone--obviously, Foday Sankoh has written himself 
out of any future role.
    There will be at our behest and that of others a special 
court to try those who have committed atrocities and war 
crimes, so therefore the domestic amnesty of the Lome agreement 
is spent. There was never an international amnesty in the first 
place, so the special court will address both those concerns.
    Obviously, there is still an understanding that at the end 
of the day, whether voluntarily or under pressure, the RUF must 
disarm and demobilize, and so that aspect, at least in 
principle remains valid.
    Senator Feingold. Thank you. I will rotate it back to you, 
Mr. Chairman.
    Senator Frist. Thank you.
    Secretary Rice, I think you have really answered a number 
of these questions, but let me just go through them and you can 
answer them in a very short fashion, because some of it you 
have already elaborated on more extensively. Does Charles 
Taylor and the Liberian Government support the RUF?
    Ms. Rice. Yes.
    Senator Frist. Does Taylor fuel the war in Sierra Leone?
    Ms. Rice. Yes.
    Senator Frist. We mentioned the sanctions, and the obvious 
questions that we have that both Senator Feingold both asked 
and implied that we have this long history of supporting the 
RUF and Taylor's behavior well-documented since 1992. Is there 
something that happened to precipitate that? In your opening 
statement you made some comments building up to it, but what 
were the events that really precipitated the sanctions today? 
We have this long history of this pattern, but for the record, 
what precipitated these sanctions being issued today?
    Ms. Rice. The conclusion that Charles Taylor was not going 
to heed the warning of the United States and the warning of 
others in the international community to cease and desist its 
support for the RUF.
    It is important to note that Charles Taylor's role in 
Sierra Leone has been a mixed one; at different times he has 
played both sides of the ledger. He has armed rebels and he has 
seemingly brokered peace. He has tried to burnish his 
diplomatic credentials by, at various times over the last few 
years, bringing the RUF to heel and at the same time 
maintaining his control over resources, his ability to run 
guns, and to benefit from the illicit diamond trade. When the 
accord collapsed and Taylor's role ceased to be a mixed one and 
was clearly wholly a negative one, we issued the warning I 
described.
    When, after a reasonable period of time, no improvement was 
evident in his behavior, we decided to take the initial step of 
imposing these visa restrictions, which we think are 
significant. As I said, should his behavior and that of the 
Government of Liberia persist in the current negative 
direction, we remain open to subsequent measures against the 
Taylor Government.
    Senator Frist. If you had to describe the U.S. relationship 
with Taylor today, how would you describe it?
    Ms. Rice. Not good. Very fraught over the issue of 
Liberia's support for the RUF and its involvement in the 
subregion and destabilizing activities, not to mention our very 
grave concerns about the human rights situation inside of 
Liberia and the lack of any meaningful progress in Liberia on 
the full range of domestic issues.
    Senator Frist. And how would you describe the Special 
Envoy's relationship with Taylor today?
    Ms. Rice. You mean Reverend Jackson?
    Senator Frist. Yes.
    Ms. Rice. Reverend Jackson's relationship extends, to my 
knowledge, only to the contacts that he has had at the behest 
of the administration, trying over the last couple of years to 
push Charles Taylor, as have many of the rest of us, to play a 
more constructive role.
    Obviously, Taylor has not heeded those efforts, and where 
he is now speaks for itself. I am not aware of any particular 
relationship between Reverend Jackson and Charles Taylor that 
persists. Reverend Jackson is fully supportive of the 
administration's policy and stance vis-a-vis Liberia.
    Senator Frist. Why did the United States not seek punitive 
measures against the Taylor Government after his men killed 
five American nuns and shot two Americans at the U.S. Embassy 
in Monrovia?
    Ms. Rice. Senator, you have to remind me of the timeframe 
of the nuns.
    Senator Frist. It was 1992, 8 years ago.
    Ms. Rice. Mr. Chairman, that was before this administration 
was in government. I cannot answer that question.
    Senator Frist. What was the State Department's role in the 
dropping of charges in Massachusetts against Taylor following 
his escape from jail there?
    Ms. Rice. I do not think the State Department played a 
role, but I am happy to give you a written response to that, if 
that would be helpful.
    [The following response was subsequently received:]

    Question. What was the State Department's role in the dropping of 
charges in Massachusetts against Taylor following his escape from jail 
there?

    Answer. The Department of State did not ask the Commonwealth of 
Massachusetts to take any action regarding then outstanding charges 
against Charles Taylor, and we did not exchange correspondence with the 
Commonwealth in this matter. The Department received a telephone call 
from authorities in Massachusetts and reiterated what we had said in 
response to a letter from President Taylor's lawyer. In that letter the 
lawyer asked for the Department's views should the charges be 
dismissed. In response, the Department stated that it would have no 
objection to the termination of charges should authorities in 
Massachusetts decide to do so.

    Senator Frist. Well, thank you for your comments, and this 
is very helpful to me. Charles Taylor effectively founded the 
RUF and continues to fuel the war in Sierra Leone. I agree 
exactly with your comments. He is a direct beneficiary of the 
war and, frankly, of the Lome agreement. Until the United 
States and other countries involved in Sierra Leone are willing 
to directly address the Taylor problem, I strongly suspect that 
we will not see peace there, and so I am delighted to see 
progress being made.
    In the past, I believe at least to appearances, it seems 
that the United States has been willing to give Taylor a break 
and has not reacted in a way that is commensurate with the 
violations against us and against Sierra Leone, and that we 
have not held him fully accountable for his role, and I mention 
that only because for Congress that lack of accountability is 
suspect and is viewed as a major factor or a weakness of our 
policy, of our overall policy toward Sierra Leone and again, 
one of the reasons for having this hearing is to try to put as 
much clarity and shine as much light on that to restore the 
trust and confidence of that policy.
    Senator Feingold.
    Senator Feingold. I just have two more questions for 
Secretary Rice. On the issue of justice and accountability and 
Sierra Leone, what action is the United States actually taking? 
For example, do we anticipate sending U.S. personnel to help 
collect information for use by the special court for war crimes 
in Sierra Leone, and perhaps you could say when such personnel 
might be deployed.
    Ms. Rice. Senator, first of all, as I believe you know, we 
have played an important role, along with the British and 
others, in establishing the special court in the United Nations 
Security Council.
    We have just recently received a report from the Secretary 
General, which the Security Council requested, which will 
inform the Council's deliberations on the actual resolution to 
formalize the establishment of the court. There are a number of 
issues that need to be resolved, from jurisdiction to funding, 
before the court is up and running.
    In the meantime, many of my colleagues and many in my 
Bureau in the State Department have been actively engaged in 
trying to work with the Government of Sierra Leone to determine 
how this court can best address their needs. We also have been 
working through Ambassador David Scheffer and others in the 
Department of State in collecting what evidence we can to 
provide a foundation to the special court.
    We have set aside resources for the collection of that 
evidence and I suspect that, once the court is established, the 
United States will try to make available whatever support 
financial, technical, and otherwise within our means we can, to 
make that court a success. Just as we have been a leading 
player in efforts to establish the court for former Yugoslavia 
in The Hague and the court in Arusha for the Rwanda Tribunal, I 
am quite certain we will do our best, with your support and 
resources, to play a leadership role in that endeavor.
    Senator Feingold. When you refer to resources, I assume you 
include the possibility of U.S. personnel being involved?
    Ms. Rice. I include the full range. I cannot make a 
commitment today. We hope we will be able to go beyond 
financial resources.
    Senator Feingold. Since May, many observers of the Sierra 
Leone crisis have noted that UNAMSIL's failings have less to do 
with the number of troops and more to do with capacity and 
mandate, although you did address obviously the importance of 
the troops and the numbers. Please explain why in mid-October 
UNAMSIL's mandate has still not changed.
    Ms. Rice. Senator, there are differences of opinion within 
the Security Council, and among some of the troop contributors, 
as to the precise scope of a revised mandate for UNAMSIL. The 
United States' position has been very clear for several months. 
We think that mandate has to be more robust. There has to be a 
capacity to take on the RUF when challenged militarily and to 
support over the long term the efforts of the Government of 
Sierra Leone to remain in control of its territory.
    We are not referring to a simple garden-variety Chapter VI 
peacekeeping mandate. Needed is a more robust mandate. We are 
working with the British and others in New York to put in 
place, when the current mandate expires in December, a more 
robust mandate. But we need not only the mandate, but troop 
contributors willing to take on that task. That, too, remains 
an ongoing challenge--one on which we are working very hard.
    Senator Feingold. Mr. Chairman, one other point. The 
administration is currently training West African troops slated 
to join UNAMSIL, and obviously some of these troops are likely 
to see some very ugly combat. The RUF and others have proven 
their willingness to test international forces time and again, 
but even in that context there are lines that should not be 
crossed, even in serious combat situations.
    How will the United States monitor the human rights 
performance of the troops we train? If the civilian human 
rights units of UNAMSIL is to play this monitoring role, will 
the United States be ensuring that the unit finally reaches its 
full deployment strength and has the resources necessary to do 
its job effectively?
    Ms. Rice. Senator, I think your question has two parts, the 
human rights component, and the ultimate effectiveness of the 
troops that we will have trained and equipped. With respect to 
human rights, consistent with our policy and with the law, we 
have carefully vetted those battalions that we have begun to 
train and we will carefully vet all subsequent battalions that 
we will train under this initiative, as we should and we must, 
to ensure that they are not units that are culpable in human 
rights violations.
    We will also continue, as we do, around the world when we 
are engaged in peacekeeping, to monitor the behavior and the 
effectiveness of those U.N. troops deployed. We will obviously 
have a special interest in those that we have helped train.
    In terms of effectiveness, we are trying to give the West 
African battalions that we intend to train both the equipment 
and the training on that equipment and standardize training to 
give them a greater capacity to take on these difficult 
military missions with greater efficacy. We are balancing, 
obviously, the constraints of time by which the troops need be 
deployed against the duration of the training.
    Were we without any sense of time pressure to augment 
UNAMSIL as quickly as we reasonably can, the training and the 
equipping program optimally could go on for several months for 
each of these battalions. As a practical matter, we have tried 
to compress it to about a 10-week period for each battalion and 
to put in place with that training the kind of equipment that 
will enhance their counterinsurgency capabilities.
    Senator Feingold. One more specific point to follow up. How 
will we monitor the involvement of U.S.-trained troops in the 
illicit diamond-smuggling, which is an accusation that was 
recently leveled against Nigerian troops in Sierra Leone?
    Ms. Rice. Mr. Chairman, there is no perfect means of doing 
that, but we have several methods. Obviously, we are very much 
involved through our embassy on the ground in Sierra Leone to 
try to keep an eye on all that is happening and to report that 
faithfully. We have also our involvement through the United 
Nations in the Security Council to monitor any reports of that. 
We also have other means that we employ in that part of the 
world and around the region to gather any information through 
all sources as to what may be going on, and we will draw on all 
of that available information.
    Senator Feingold. Thank you, Secretary Rice. Thank you, Mr. 
Chairman.
    Senator Frist. Thank you, and Secretary Rice, in kind of 
continuing with this commitment, in the big picture, could you 
describe what the Nigerians are now prepared to do to secure 
peace in Sierra Leone?
    Ms. Rice. The Government of Nigeria has committed five of 
the seven battalions that we are training. They have taken a 
disproportionate number of the casualties and invested a 
disproportionate amount of resources over the last several 
years in Sierra Leone to try to restore the democratically 
elected government, protect the people of Sierra Leone, and 
stabilize the situation. They remain committed to Sierra Leone 
and to redeeming that substantial investment, even though it 
was a commitment made largely under the previous government.
    President Abasanjo has made very plain that he is prepared 
to have Nigeria play a robust combat role within UNAMSIL as 
necessary to accomplish the task that I have outlined. At the 
same time, Nigeria remains a leading member of ECOWAS, and 
shares the view within ECOWAS that a lasting solution to the 
crisis in Sierra Leone is going to have to combine military 
pressure with ongoing diplomacy. So, Nigeria also remains 
active within ECOWAS in trying to bring about a lasting 
resolution to the conflict through a combination of its 
diplomacy and its military involvement.
    Senator Frist. So what are the Nigerians prepared to do now 
that they were not prepared to do under the auspices of ECOMOG?
    Ms. Rice. Mr. Chairman, the difference is not so much in 
Nigeria's will. It is in resources. Nigeria involved itself in 
Sierra Leone at an estimated cost of $1 million a day, took 
thousands of casualties and remains committed, as I said, to 
playing that active role in Sierra Leone. Once a democratic 
government came to power and was accountable to a legislature 
and to its people, and had other domestic spending priorities, 
its ability to sustain that commitment indefinitely, without a 
massive infusion of resources from the international community, 
was no longer viable.
    So what will change now is that the Nigerian troops will be 
part of UNAMSIL. In fact, Nigerian troops are already a part of 
UNAMSIL. They will have more troops in UNAMSIL, and those 
troops will be better equipped, better trained, and with your 
support and that of your colleagues, funded through United 
Nations assessed contributions.
    Senator Frist. Will the Nigerian forces seek to wrest 
control of the diamond-producing areas or any areas from the 
RUF, or will they just take up positions that are currently 
held by U.N. peacekeepers, or maybe simply take the place of 
departing Indian and Jordanian troops?
    Ms. Rice. They are prepared to play a robust role alongside 
the other contingents from the West African region and 
alongside the Government of Sierra Leone's Army, which is being 
trained in parallel by the British to be what we have called 
the pointy end of the spear, to take on the necessary tasks on 
the front lines to help the Government of Sierra Leone restore 
its control, not only of the diamond mines, but key population 
centers and the bulk of its territory.
    So the short answer to your question is yes.
    Senator Frist. Is their new mandate clear on this, or have 
they otherwise given us a clear and unequivocal indication of 
the type of mission? I understood exactly what you said, and is 
that what they have spelled out to us?
    Ms. Rice. That has been their very clear statement to us in 
numerous channels on various occasions over the last several 
months. I'm not aware of any confusion or ambiguity on that 
score. With respect to the Nigerians, we still are working, as 
I mentioned earlier, to put in place a mandate in the Security 
Council that is commensurate with that commitment.
    Senator Frist. Thank you. Senator Feingold, any further 
questions?
    Senator Feingold. No, Mr. Chairman.
    Senator Frist. Let me again just close, Secretary Rice, 
with what I opened with, and that is, it has been a real 
pleasure to be able to work with you over the last several 
years.
    I think it is very obvious, from the participation in 
hearings, the interest that the ranking member and that I have 
on this committee, that we share the same goals with you, that 
these issues must be above partisanship, that real progress and 
building for the future, which is a little bit what we are 
doing today, means we need to look very carefully at the 
current policy and the past and we, and I speak on behalf of 
this entire subcommittee and the Committee on Foreign 
Relations, very much appreciate your own cooperation and 
collaboration and working together over this Congress.
    Ms. Rice. Thank you very much, Mr. Chairman. The pleasure 
has been mutual. I am very grateful for your kind words and, 
Senator Feingold, for your kind words and the support of the 
two of you in particular, but the entire subcommittee and also 
your staffs.
    I would like to say one last thing as we wrap up. You all 
have great staffs that are truly, deeply committed and that 
have been good partners when we agree and disagree. I have 
great respect for them and for you, and I thank you again for 
the privilege of working with you.
    Senator Feingold. Thank you, Secretary Rice.
    Senator Frist. Let me ask the second panel to come forward 
at this juncture. I will explain what we will be doing in terms 
of process. Dr. Reno and Mr. Akwei.
    The second panel consists of Dr. William Reno, associate 
professor of political science, Northwestern University, and 
Mr. Adotei Akwei, director for Africa Advocacy at Amnesty 
International.
    What we will do, because the U.S. Senate rules do not allow 
us to hold this hearing beyond 11:30 because there has been an 
objection to unanimous consent to do so, I want to make sure 
that your entire written statements will be made a part of the 
record, but that gives us only about 12 or 13 minutes.
    This is very unfair, but I am going to ask each of you, 
because I want it to be made a part of the record, your oral 
comments as well, to take about 6 minutes to summarize and then 
we will come back and allow each of you to more formally in a 
public meeting setting, but we will have to terminate 
officially this hearing at 11:30, so I am going to ask Dr. 
Reno, for you to summarize for about 6 minutes your statement, 
and then I will turn to Mr. Akwei and ask him to summarize his 
statement in about 6 minutes.

STATEMENT OF DR. WILLIAM RENO, ASSOCIATE PROFESSOR OF POLITICAL 
         SCIENCE, NORTHWESTERN UNIVERSITY, EVANSTON, IL

    Dr. Reno. A difficult challenge for any academic. In 
viewing the situation in Sierra Leone, I draw attention to what 
I see as a serious larger regional situation that has important 
consequences for U.S. foreign policy, and one thing I would 
like to keep in mind is the route through which Charles Taylor 
came to power.
    It was through an internationally mediated agreement that 
Charles Taylor was allowed to stand for election, and that he 
was elected as President of Liberia in 1997, but I think that 
this agreement underscores a lot of the weaknesses of 
uncritical views from abroad about the nature of the combatants 
in wars in these parts of Africa and wars in other parts of the 
world that are characteristic of State collapse.
    Most of these are people who do not have large power bases. 
Those followers which they do have are attached to them more 
often through distribution of opportunities for looting and so 
forth, and their route to power is most often through 
intimidation.
    Charles Taylor is widely thought to have intimidated voters 
in Liberia by hinting that if he was not elected, that he would 
go back to war and that Liberia would continue to suffer the 
factional fighting that it has, and so this means that once in 
power they have to rule through patronage and coercion and they 
are also in a position, along with that aid from the 
international community, to prevent the rise of credible 
alternative political groups.
    So essentially in Liberia what we have is a President who 
is also a warlord. He does not govern Liberia as most would 
govern States in other parts of the world. There's no 
particular evidence of attention to a public good provision of 
government services and so forth. I would argue that Charles 
Taylor is congenitally incapable of doing such a thing, even if 
he wished to do such a thing, because he would have to then 
face his previous record, his predations against the people of 
Liberia.
    This means that any attempt to try to isolate Charles 
Taylor as a larger strategy in Sierra Leone I think will have 
important and very drastic consequences for Liberia. Charles 
Taylor has to provide some source of patronage for the fighters 
who brought him the power and for his RUF allies. The only way 
that he can reasonably do this is provide looting 
opportunities, business opportunities for them preferably 
outside of Liberia.
    As the military offensive has pushed against Charles 
Taylor, his own regime will become more insecure as his now-
unemployed fighters begin to filter back into Monrovia. I 
believe that this is behind Charles Taylor's support for rebels 
in Sierra Leone, and now his support or his apparent support 
for rebels in attacks that have begun against Guinea, so the 
contradiction that outsiders, including the United States, face 
is that yes, indeed, Charles Taylor is part of the problem.
    He is a warlord who also happens to be the President of a 
State, and he promotes conflict in neighboring States as a part 
of his strategy to remain in power, yet to remove Charles 
Taylor without talking to any of these credible alternative 
political groups within Liberian society, the usual diplomatic 
route of talking simply to the people who have guns risks 
bringing Liberia back into the war, continuing that war of 1989 
to 1997.
    As I do my research on Liberia I find that I get increasing 
numbers of telephone calls from different faction leaders who 
are involved in the war in the 1990's. They all perceive that 
Charles Taylor has become weak. They are calling up people. 
They are reminding people that they are still alive, and that 
they still would like to make some sort of claim on power in 
Liberia.
    So the choice is pursue the offensive against the rebels in 
Sierra Leone and have a war in Liberia, or not pursue the 
offensive against the rebels in Sierra Leone and have a war in 
Sierra Leone. I believe that the situation is therefore much 
more complicated and probably involves a more refined and 
probably longer-term arrangement that is more tailored to the 
specific problem that affects not just West Africa, but other 
parts of the world, this problem of State collapse, and I would 
just comment along the lines of policy that has been discussed 
here.
    For example, the train-and-equip policy of trying to 
bolster the effectiveness of troops from the region, 
particularly of Nigerian troops, that this is also a double-
edged sword, particularly when we see policy pursued without 
consideration of these basic needs in the region, the rule of 
law, and human rights.
    I was reading a Nigerian news weekly recently that talks 
about the proliferation of private armed gangs in Nigeria. It 
says, once they are satisfied with the person they have caught, 
instant judgment is pronounced on such a person. Carrying out 
the judgment takes the form first of cutting off the hand from 
the elbow, known as short-sleeve, or from the shoulders, known 
as long-sleeve.
    The suspicion is that these are what Sierra Leoneans call 
sobels. These are demobilized Nigerian soldiers who have 
returned from West Africa and who are repeating the same sorts 
of predations against their own people. There is a picture, the 
caption of which says, ``Peacekeeping Operations Source of 
Cheap Arms Supplies to Criminals.''
    So I will leave it at that and then turn it over to Mr. 
Akwei.
    Senator Frist. Thank you, Dr. Reno.
    Mr. Akwei.

 STATEMENT OF MR. ADOTEI AKWEI, DIRECTOR FOR AFRICA ADVOCACY, 
             AMNESTY INTERNATIONAL, WASHINGTON, DC

    Mr. Akwei. I will be real quick. I just want to read two 
paragraphs, then make one point.
    We approach these hearings as an opportunity to give 
constructive criticism and hopefully develop the impetus for 
policy and actions that will genuinely help the people of 
Sierra Leone and their policy. The critique of U.S. policy is 
based on our own concern that U.S. policy in Sierra Leone never 
consistently placed the restoration of human rights and the 
rule of law at the center of its decisionmaking policies and 
that this will continue to be the case.
    We are not in the business of setting down any historical 
records of who did what, when, and why, and critiquing 
decisions and actions unless it has implications for improving 
human rights protections. We are also sensitive to the charge 
of armchair-quarterbacking, and we know there are no quick, 
simple answers. There is enough blame here to cover the 
administration, Congress, and the NGO community in addition to 
the warring factions and surrounding governments in the region. 
We certainly make no claim to having a silver bullet for the 
troubles of Sierra Leone, but in fact I think we would view the 
fact that the crisis has gone on for so long as an indictment 
on our efforts also. Even if we were to end the crisis today, 
it would have gone on for too long.
    Moving on from there, I would say that the crisis involves 
several issues, perceptions of political and economic 
marginalization, control over the country's diamonds, the 
proliferation of small arms, and the use of child soldiers, 
just to name a few. We also have the contributions of 
surrounding regional governments like Liberia, Burkina Faso, 
and Guinea, and the failure of the international community to 
respond appropriately.
    While all of these factors are important and must be 
addressed forcefully, the crisis is primarily of a human rights 
nature. The international community can and should play a role 
in helping the people of Sierra Leone solve their domestic 
issues and challenges.
    It is, however, morally incumbent upon us to respond to 
help stop the commission of human rights violations, especially 
when they reach the levels they did in Sierra Leone. This must 
be the operating paradigm within which policy options, however 
difficult they may be, must be considered and ultimately taken.
    Both Congress and the administration, despite the efforts 
of committed individuals like yourselves, have let critical 
opportunities slip, allowing the crisis to escalate until many 
of the options left were not only unattractive but were of 
questionable use in resolving the crisis.
    We would address specifically the issue of political will 
and leadership. Assistant Secretary Rice mentioned today a 
number of difficult issues and situations in which they were 
placed and which they generally tried to do the best thing, but 
one area where there was, I think, a severe lack was in the 
political will and leadership that was needed to build public 
awareness and public support for the more difficult decisions 
that would have possibly helped avoid the whole scandal of the 
Lome peace agreement that you referred to for so long.
    Our testimony has a number of different recommendations. I 
would just say that one of the most critical ones is trying to 
end the flow of diamonds and the revenues that help facilitate 
the purchase of small arms. If there is any way Congress can 
pass legislation based on the CARAT act in the House that will 
ban conflict diamonds from the U.S. market, it will be an 
incredibly important step, not the only one necessary, but 
certainly it would help us get into a better position to have a 
better impact on the situation on Sierra Leone, and I will stop 
there.
    [The prepared statement of Mr. Akwei follows:]

                   Prepared Statement of Adotei Akwei

                            1. INTRODUCTION
    Mr. Chairman, distinguished members of the Subcommittee on behalf 
of Amnesty International USA, I would like to express our appreciation 
for holding these hearings and for giving me the opportunity to testify 
before you. The Senate African Affairs subcommittee has been one of the 
most consistent allies in the struggle to protect human rights in 
Africa and for positive U.S. engagement in helping Africans meet the 
challenges and crises that they face. Indeed, I know I speak for the 
NGO community that has been working on the crisis in Sierra Leone when 
I say that this committee has been the rare exception that has been 
willing to listen and work with Sierra Leone expatriates and 
nongovernmental organizations (NGOs) like AIUSA, to try and help end 
the crisis in Sierra Leone.
    These hearings are extremely timely. There are decisions to be made 
on the United Nations Special Court for Sierra Leone and issues to be 
addressed on the ongoing U.S. military training of Nigerian and 
Ghanaian battalions for peacekeeping duties in Sierra Leone. Hearings 
are also necessary in response to the international agreement on a 
certification program to eliminate conflict diamonds, that have played 
such a central role in the decade long tragedy but even that does not 
constitute the primary reason to hold these deliberations. The primary 
reason in my mind to hold the hearings is because of the basic fact 
that we still face a crisis in Sierra Leone today. The rebel 
Revolutionary United Front (RUF) and it ally the Armed Forces 
Revolutionary Council (AFRC) still controls most of the country, where 
it is more then likely that war crimes and crimes against humanity of 
the kind that were graphically presented in last month's Vanity Fair 
magazine are still occurring. Security within the areas ostensibly 
under the protection of UNAMSIL is at best patchy and UNAMSIL itself is 
going through disturbing levels of internal turmoil. This is a 
situation that could easily deteriorate once again to the horrific 
levels of May 1997 or of January 1999 and each day the conflict goes 
on, the people of Sierra Leone lose more people, more resources and 
more time.
    If that were not alarming enough, there are frightening regional 
implications from the Sierra Leone crisis. The longer the crisis is 
prolonged the greater the damage is to regional stability. Simply put 
the longer the RUF insurgency continues the more likely are the chances 
that its brutal tactics will be copied and possibly added to. With weak 
governments in Nigeria, Cote d'Ivoire, Liberia, the Gambia, Guinea and 
Burkina Faso, to name a few, it becomes clear that restoring peace and 
security built upon the rule of law in Sierra Leone is critical. Ending 
the crisis quickly is in the best interest of the West Africa region as 
well as the United States.
    Mr. Chairman, we are approaching these hearings as an opportunity 
to give constructive criticism and hopefully help develop the impetus 
for policy and actions that will genuinely help the people of Sierra 
Leone and end the crisis. AIUSA's critique of U.S. policy is based on 
our ongoing concern that U.S. policy on Sierra Leone has never 
consistently placed the restoration of human rights in Sierra Leone at 
the center of all decision making and that this will continue to be the 
case. We are not in the business of setting down the historical record 
of who did what, when, and why and critiquing decisions and actions, 
unless it has implications for human rights protection in the present 
and in the future and for shaping U.S. policy. AIUSA is also sensitive 
to the charge of armchair quarterbacking and here we would like to 
stress that these are not easy issues and that there are no quick 
simple answers. There is enough blame here to cover the Clinton 
administration, Congress and the NGO community in addition to the 
warring factions and the surrounding governments in the region. AIUSA 
makes no claim to having the silver bullet of the troubles of Sierra 
Leone. In addition AIUSA views the fact that this crisis has gone on 
for ten long years as an indictment of our efforts as well. Two weeks 
ago when a group of child amputees testified before the House Africa 
subcommittee, it was a somber reminder that even if we could stop the 
crisis today, it will still have taken us too long.
    It is in this sprit that we present this testimony and hope that 
here in the United States Congress, the Clinton Administration and the 
NGO community can improve how they work together to maximize the impact 
of U.S. policy and actions in helping end the crisis. My presentation 
will be as follows:

    1. Introduction

    2. Conclusions and Summary of Key Amnesty International USA 
Recommendations

    3. Review of Sierra Leone Crisis

    4. Review of Key issues and AIUSA Policy Suggestions for the 
Clinton Administration and Congress

        2. CONCLUSIONS AND SUMMARY OF KEY AIUSA RECOMMENDATIONS
    The crisis in Sierra Leone involves several issues, perceptions of 
political and economic marginalization, control of the country's 
diamonds, the proliferation of small arms and the use of child 
soldiers. Also contributing to the crisis have been the destructive 
roles played by regional governments like Liberia, Burkina Faso and 
Guinea and the failure of the international community to respond 
appropriately. While all of these factors are important and must be 
addressed forcefully, the crisis is primarily of a human rights nature. 
The international community can and should play a role in helping the 
people of Sierra Leone solve their domestic issues and challenges. It 
is, however, morally incumbent on the international community to 
respond and help stop the commission of human rights violations 
particularly when they reach the levels that they have in Sierra Leone. 
This must be the operating paradigm within which difficult policy 
options for Sierra Leone are considered and ultimately decisions taken.
    Both Congress and the Administration, despite the efforts of 
committed individuals, have let critical opportunities slip, allowing 
the crisis to escalate until many of the options were not only 
unattractive but of questionable use in resolving the crisis. With this 
in mind, we would like to address the key areas where the United States 
should bring its diplomatic and financial resources to bear to make 
sure that the next time peace is consolidated in Sierra Leone, it is 
built on justice, human rights and has a chance of surviving.
Recommendations
  <bullet> The Sierra Leone Court must receive adequate funding and 
        managerial support so as to ensure that it fulfills its mandate 
        and contributes to the restoration of the rule of law and 
        justice. The Administration has already allocated start up 
        funds and is playing a leading role in helping the effort get 
        off the ground. Congress should also support this effort.

  <bullet> The UN Special Court on Sierra Leone must be impartial and 
        thorough in the scope of its investigations. A court that 
        focuses only on the RUF/AFRC forces will end up being a major 
        contributor to renewed grievances and possibly a return to 
        hostilities.

  <bullet> Congress and the Administration should work together and in 
        partnership with other donor countries to rebuild and revive 
        the judicial system.

  <bullet> The Administration, in partnership with the NGO sector 
        should also devise programs to train new legal personnel in 
        Sierra Leone. It should also help persons here in the United 
        States with the necessary legal expertise who want to volunteer 
        and help rebuild the justice system get to Sierra Leone.

  <bullet> The Sierra Leone government, its allies and the RUF/AFRC 
        must immediately stop the use of child soldiers and prioritize 
        their reintegration into society.

  <bullet> Governments providing military assistance, including 
        training, arms and ammunition, to the Sierra Leone Army and 
        other forces fighting on behalf of the government should first 
        ensure that stringent safeguards are in place to ensure that 
        this assistance does not facilitate or encourage violations of 
        international human rights and humanitarian law, including the 
        recruitment and use of child combatants. If evidence is found 
        that such assistance facilitates the recruitment and use of 
        child combatants, such assistance should be suspended.

  <bullet> The international community should provide full and 
        sustained support and assistance to relevant UN agencies and 
        non-governmental organizations, both national and 
        international, in order to strengthen initiatives for child 
        protection, prevent further recruitment and use as combatants. 
        Funds should also be directed towards disarmament, 
        demobilization and reintegration of former child combatants, 
        including meeting their social, psychological and material 
        needs.

  <bullet> The UN should ensure that all troops participating in the 
        UNAMSIIL peacekeeping force are fully trained in international 
        human rights and humanitarian law, including children's rights, 
        and that they have training in addressing the specific needs of 
        child combatants.

  <bullet> The United States should continue supporting the UN 
        peacekeeping operation in Sierra Leone in order to ensure that 
        fundamental human rights are protected.

  <bullet> The UN Security Council should investigate the origins of 
        diamonds exported from Liberia and other West African countries 
        to ensure that these are not from rebel-held areas of Sierra 
        Leone.

  <bullet> Congress must pass legislation banning ``conflict 
        diamonds,'' from being imported in to the United States.

  <bullet> The United States along with its other European partners 
        should work with and support the ECOWAS and UN initiatives in 
        an effort to cut of the flow of small arms to the RUF. Any 
        violations of the embargo should be publicly investigated, and 
        appropriate action should be taken by the Security Council.

  <bullet> The Human Rights Monitoring Component of UNAMSIL should be 
        expanded strengthened and authorized to report on UNAMSIL 
        performance vis a vis the protection of human rights and offer 
        policy recommendations.

  <bullet> U.S. training for Nigerian and Ghanaian troops must be in 
        compliance with the Leahy law and details should be made 
        transparent. Training should include vetting of candidates, 
        follow on procedures and processes to assess how students 
        perform after the training and details of what type of training 
        must be made public so as to ensure a focus on human rights 
        protection.

                  3. REVIEW OF THE SIERRA LEONE CRISIS
    Sierra Leone has been in crisis since 1991 when a former soldier in 
the Sierra Leone Army, Foday Sankoh, formed the RUF and with backing 
and arms from the Charles Taylor led military faction, the NPLF in 
neighboring Liberia launched the insurgency devastating the country. 
The insurgency continued despite a military coup led by Captain 
Valentine Strasser removing the government of Joseph Momoh in 1992. In 
January of 1996 Strasser was removed in an internal coup by his Chief 
of Staff, Brigadier Julius Maada Bio, who held elections and handed 
over power to Tejan Kabbah in March of 1996.
    In May 1997 the RUF came to power following another coup by junior 
officers who formed the Armed Forces Revolutionary Council (AFRC) who 
invited the RUF to rule jointly with them and resist the Nigerian 
ECOMOG force. The AFRC/RUF government was driven out of power by ECOMOG 
in March 1998.
    In December 1998, the rebel forces launched a major offensive and 
briefly re-took the capital on January 6, 1999. The same type of human 
rights abuses that marked the AFRC/RUF period re-occurred in larger 
numbers. In addition to the rebels also used civilians as human shields 
as they burned and looted their way through the capital. Key members of 
civil society including doctors, traditional leaders and lawyers, in 
particular those associated with the trials initiated by the Kabbah 
government against captured members of the AFRC, were butchered. By the 
end of January ECOMOG had retaken Freetown.
    The July 1999 Lome peace agreement between the government of Sierra 
Leone and the RUF/AFRC forces officially ended the conflict but human 
rights abuses continued to occur especially in the areas under rebel 
control.
    The peace agreement, among other things called for the release of 
all prisoners of war and non-combatants, granted a total amnesty for 
all acts undertaken by combatants in the pursuit of the conflict and 
brought in the RUF/AFRC command structure in to the government. Foday 
Sankoh was appointed Vice President and placed in charge of the 
Committee overseeing the diamond industry.
    The Lome agreement did allow the beginning of a disarmament, 
demobilization and rehabilitation process which was to reduce the 
number of combatants and produce a new unified Sierra Leone army and 
also paved the way for the authorization of a UN peacekeeping force in 
October 1999 to replace ECOMOG.
    By the end of November 1999 only some 4,000 of an estimated 45,000 
former combatants had been demobilized, among them only a few child 
combatants, who the UN estimated to number more than 5,000, although 
the real number of child soldiers was thought to be much higher.

           4. REVIEW OF KEY ISSUES AND AIUSA RECOMMENDATIONS

                     I. Justice and Accountability

            The International Criminal Court
    On August 14, 2000 the UN Security Council agreed to the creation 
of a special court which would look into crimes against humanity, war 
crimes and other serious violations of international humanitarian law 
that have taken place in Sierra Leone. UN Security Council Resolution 
1315 gave the court jurisdiction ``over senior Sierra Leone nationals 
who bear the greatest responsibility for the most systematic and 
egregious criminal violations of Sierra Leone law and international 
humanitarian law, in particular those whose actions have posed, since 7 
July 1999, serious threats to peace and security in the region.''
    A team of experts appointed by the UN Secretary General was sent to 
Sierra Leone to finalize details and modalities and their report was 
released on October 4. The recommendations of the report will be 
debated and voted on by the Security Council later this month.
    Here let me state clearly that had it not been for U.S. leadership 
on this issue we would not be contemplating the details and function of 
a special court for Sierra Leone, despite the glaring need for it. For 
this both Congress and the Clinton Administration should be commended. 
However, much more needs to be done. It is therefore critical that the 
Clinton Administration and Congress continue to show the leadership 
they have shown on this issue.
    According the report, the Special Court will:

    a. Combine both International and Sierra Leone law as well as staff 
and have concurrent jurisdiction with Sierra Leone legal system while 
retaining primacy over the courts of Sierra Leone.

    b. The court will cover a period starting from November 1996 to the 
present.

    c. The court will try approximately 25 people, focusing its 
resources on the key commanders and architects of the human rights 
violations.
Recommendations
  <bullet> The Sierra Leone Court must receive adequate funding and 
        managerial support so as to ensure that it fulfills its mandate 
        and contributes to the restoration of the rule of law and 
        justice. The Administration has already allocated start up 
        funds and is playing a leading role in helping the effort get 
        off the ground. Congress should also support this effort.

  <bullet> It is essential that the court be impartial and thorough in 
        the scope of its investigations. A court that focuses only on 
        the RUF will end up being a major contributor to renewed 
        grievances and possibly a return to hostilities.

    As currently described by the Sierra Leone and U.S. and UK 
governmental authorities, the court seems designed to focus on the RUF 
and the AFRC and its human rights abuses. The human rights violations 
by the Sierra Leone Army, militias like the Civil Defense Forces, 
including the Karmarjors and as well as those by the military arm of 
ECOWAS, ECOMOG could very well be de-prioritized and postponed ``until 
later more appropriate moment.'' This would be a mistake. It would feed 
the sense of impunity of the militias and undermine the rule of law in 
the future. The incidents with the West Side Boys militia group is a 
vivid example of armed groups who have grown used to being above the 
law. The U.S. Department of State Human Rights Report for 1999 itself 
details human rights abuses committed by government forces and ECOMOG.
    A failure to enforce accountability could further undermine UNAMSIL 
and the Nigerian and Ghanaian battalions that are currently being 
trained by the United States for more robust engagement with the RUF. 
Finally, if the forces that are supposed to rid the country of the RUF 
behave in no less a brutal manner then what is the point of training 
them or of brining RUF commanders to justice?
    The weakness of the Clinton administration on this issue is 
disappointing and disturbing as it suggests a continuation of the 
approach of co-option and forgiveness for possible human rights 
violators who have now switched sides and are now considered ``good 
guys.'' This approach failed spectacularly with the Lome agreement and 
should not be revived.
            The Sierra Leone Judicial system
    The Special Court will handle a fraction of the potential caseload 
of human rights violators. The majority of the work will have to be 
undertaken by the Sierra Leone justice system which has been decimated 
by the nine-year-old conflict.
    Rebuilding the judicial system will be critical for the country's 
long-term stability and as a third leg to justice and reconciliation 
process carried out by the Special Court and the Truth and 
Reconciliation process.
Recommendations
  <bullet> AIUSA urges Congress and the Administration to work together 
        and in partnership with other donor countries to rebuild and 
        revive the judicial system. Earlier this year, Congressman Sam 
        Gedjensen introduced legislation setting aside 10 million 
        dollars for the demobilization of child soldiers and to help 
        rebuild the justice system. It is time to revisit those ideas 
        and make them a reality.

  <bullet> The Administration, in partnership with the NGO sector 
        should also devise programs to train new legal personnel in 
        Sierra Leone. It should also help persons here in the United 
        States with the necessary legal expertise who want to volunteer 
        and help rebuild the justice system get to Sierra Leone.

            The Truth and Reconciliation Process of the Lome Peace 
                    Accords
    Amnesty International appreciates the fact that many of the persons 
involved in the commission of human rights violations were themselves 
victims--forced either at gunpoint or under the influence of drugs or 
both to commit egregious abuses. At the same time, we have no illusions 
regarding the resources that Sierra Leone has or that the international 
community will provide--despite it being in the best interest of long 
term stability to do so. Sierra Leone must go though a reconciliation 
process, ideally one that will respect and include the psychological 
and cultural needs of the country. However accountability must not be 
sacrificed in the process. The TRC process must go hand in hand with 
the work of the criminal court and the Sierra Leone judicial system or 
impunity will continue and all of this hard work all of the suffering 
of the population, will truly have been in vain.
    Legislation setting up the Truth and Reconciliation Commission was 
passed by the Sierra Leone parliament in February of this year. At that 
point the United Kingdom committed itself to providing 270,000 pounds 
to start the process. Hopes for rapid movement forward on the issue 
were derailed in April and May when the RUF/AFRC forces reneged on the 
peace agreement and began attacking UN forces. A hold was placed on the 
funds by the Blair government and it was only in the last few weeks 
that a representative of the United Nations High Commissioner for Human 
Rights went to Sierra Leone to assess how the process could be re-
started. When it does begin the process will be as follows:

        a. Local and international Commissioners will be appointed by 
        the UN High Commissioner for Human Rights, a process which 
        should take at most two months.

        b. The Commissioners will then have two to three months to 
        design the modalities the TRC will follow, whether it will 
        focus on public national hearings or whether the emphasis will 
        be on smaller community level events. Whether the TRC will 
        focus more on mediation as opposed to public recitations of 
        guilt and how the TRC process will incorporate religious and 
        cultural practices and include traditional leadership.

        c. Once all of these details are in place and the TRC starts 
        operating, it will have a one-year mandate. At the moment, the 
        TRC powers to encourage cooperation and participation are 
        limited to its ability to subpoena witnesses and potentially to 
        sentence persons who refuse to cooperate with contempt of 
        court, a charge punishable by six months in jail.

    One of the most useful things the Clinton Administration could do 
would be to encourage and facilitate a clearer understanding of the TRC 
process, the Special Court and even what the status is of the Lome 
Accords of 1999 from the Sierra Leone government and to the Sierra 
Leone public. The absence of consultation and information about 
developments and issues could easily lead to serious misunderstandings, 
anger and frustration over raised expectations that are then 
disappointed. More importantly it undermines efforts to hold people 
accountable for doing what they have committed themselves to do.

                 II. Demobilization of Child Combatants

    The conflict in Sierra Leone set new standards for the use of child 
soldiers in combat. Prior to January of this year, international law 
held that a person had to be fifteen to participate in combat and to be 
recruited. If luck holds and enough nations ratify the new Optional 
Protocol to the Convention on the Rights of the Child on the 
Involvement of Children in Armed Conflict, that standard will rise to 
eighteen. Under either scenario both the RUF/AFRC forces and the SLA 
and it militias recruited and used children in a gross violation of 
international law and simple decency. Report of children as young as 7 
being turned into killers through the use of drugs, violence and 
intimidation are legion. While exact numbers are almost impossible to 
come by, given the lack of access to the whole country, experts 
estimate that at least 10,000 children have been involved in the 
conflict over the nine-year period. During the January 1999 RUF 
offensive on Freetown alone, the rebels kidnaped an estimated 5,000 
children. These children have not yet been released. Worse the practice 
of using children in combat has not ended.
    On several occasions, leaders of the Sierra Leone Army, the 
paramilitary Civil Defense Force, and the Armed Forces Ruling Council 
(AFRC) agreed to disavow the practice of recruiting children as 
soldiers. In truth, the opposite appears to be true. According to an 
Amnesty International Report (Sierra Leone: Childhood--a casualty of 
conflict, 31 August 2000), both the CDF and the RUF are continuing to 
recruit child soldiers. Rebels continue to abduct children and force 
them into combat There is also evidence that the pro-government forces, 
the Civil Defense Forces (CDF) known also as the Karmarjors, a militia 
based on traditional hunter secret society, continue to use child 
soldiers.
    In May, for example, human rights officers for UNICEF observed 
several armed child combatants, mostly boys, with the Civil Defense 
Forces, AFRC/ex-SLA and the Sierra Leone Army. About 25 percent of the 
combatants were under 18 years and some freely admitted that their ages 
were between 7 and 14 years. Almost all of them were armed. Other 
reports indicate that the RUF is using a similar proportion of child 
combatants in the front lines.
Recommendations
  <bullet> The Sierra Leone government, its allies and the RUF/AFRC 
        forces must immediately stop the use of child soldiers and 
        prioritize their rehabilitation and reintegration back into 
        society.

  <bullet> Those governments which are providing military assistance, 
        including training, arms and ammunition, to the Sierra Leone 
        Army and other forces fighting on behalf of the government 
        should first ensure that stringent safeguards are in place to 
        ensure that this assistance does not facilitate or encourage 
        violations of international human rights and humanitarian law, 
        including the recruitment and use of child combatants; these 
        safeguards should also include effective mechanisms to ensure 
        that arms do not reach combatants under the age of 18. If 
        evidence is found that such assistance facilitates the 
        recruitment and use of child combatants, such assistance should 
        be suspended.

  <bullet> The international community, including the United States 
        should provide full and sustained support and assistance to 
        relevant UN agencies and non-governmental organizations, both 
        national and international, in order to strengthen initiatives 
        for child protection, prevent further recruitment and use as 
        combatants of children under the age of 18 and assist the 
        disarmament, demobilization and reintegration of former child 
        combatants, including their social, psychological and material 
        needs.

  <bullet> The UN should ensure that all troops participating in the 
        UNAMSIL peacekeeping force are fully trained in international 
        human rights and humanitarian law, including children's rights, 
        and that they have training in addressing the specific needs of 
        child combatants.

  <bullet> The United States should continue supporting the UN 
        peacekeeping operation in Sierra Leone in order to ensure that 
        fundamental human rights are protected.

            III. Ending the Role Played by Conflict Diamonds

    Sierra Leone's brutal nine-year rebel insurgency has been focused 
on and financed by lucrative trade in diamonds. The RUF has terrorized 
the civilian population and committed atrocities that have left 
thousands dead, homeless and brutally maimed. The RUF uses revenues 
from the sale of diamonds mined in the areas under their control to 
fund their campaign of terror. The governments of Liberia and Burkina 
Faso have been directly implicated as providing weapons and supplies to 
the RUF.
    On July 5, the UN Security Council passed a resolution banning the 
sale of illicit diamonds from Sierra Leone. At their May summit in 
Abuja, Nigeria, member states of ECOWAS agreed to undertake a regional 
inquiry into the illegal trade in diamonds. Both institutions realized 
the central role played by diamonds in sparking and fueling the 
conflict. It is estimated that the RUF has made $200 million a year 
over the period it has controlled the diamond producing areas of Sierra 
Leone. A recent report by the U.S. Agency for International Development 
estimated that diamonds valued at about $70 million (U.S.) were mined 
in Sierra Leone last year, but only $1.5 million were exported through 
official channels. The other $68.5 million left the country illegally. 
This is an open secret. Liberia's annual capacity to mine diamonds is 
estimated to be about 200,000 carats. Yet in 1999, the Diamond High 
Council in Antwerp recorded imports from Liberia of 1.7 million carats, 
worth $298.91 million.
    At the World Diamond Council in July, the diamond industry, in 
principle, adopted strict measures in an effort to stop rebel groups in 
Africa from selling the priced gems in order to fund their 
insurgencies. They asserted that any trader found dealing in conflict 
diamonds would be banned from the business. They also started the 
process of setting up a certification regimen that will guarantee where 
diamonds have been mined and certificates that will have to accompany 
the diamonds through the cutting and polishing centers to their final 
destination for sale. Failure to have the necessary documentation will 
result in the diamonds being banned from being legally sold. The 
diamond producing countries at a conference in September in Kimberly, 
South Africa, adopted the proposed certification process. Currently, 
certificates of origin only require notification of where a diamond is 
being exported from and not the site where it was mined.
    While these are critical steps and the UN, the diamond industry and 
the diamond producing countries should be congratulated and encouraged, 
much more needs to be done and it must be done as quickly as possible. 
National governments will have to pass laws criminalizing violations of 
the certification process for it to work. Here in the United States, 
both the government and the U.S. diamond industry have an opportunity 
to set an example and show leadership by enacting the necessary 
legislation to ban conflict diamonds from being imported into the 
United States. With the U.S. market alone accounting for nearly 65% of 
the global market, it is an opportunity not only to do the right thing, 
but also to have a resounding impact that will benefit the victims in 
Sierra Leone and other areas suffering because of conflict diamonds.
    Here too the efforts of the Administration have been inconsistent. 
U.S. Ambassador Richard Holbrooke personally pushed the issue of 
conflict diamonds in the United Nations. However no other leadership 
has been shown in developing the public awareness and necessary support 
to ban conflict diamonds from being imported into the United States. 
The CARAT Act, which was introduced by Representative Tony Hall of 
Ohio, remains stalled in the House and there is very little time left 
in this session. We appeal to you, Congress can and must pass the 
necessary legislation banning the importation of ``conflict diamonds'' 
into the U.S. It is in keeping with international efforts, it has the 
support of the U.S. diamond industry, according to their own press 
releases and it is the right and necessary thing to do.
Recommendations
  <bullet> Amnesty International urges the Security Council to 
        investigate the origins of diamonds exported from Liberia and 
        other West African countries to ensure that these are not from 
        rebel-held areas of Sierra Leone.

  <bullet> Congress must pass legislation banning ``conflict 
        diamonds,'' that is, diamonds mined from rebel held areas and 
        used to facilitate their purchase of weapons used in the 
        committing of human rights abuses, from being imported into the 
        United States.

        IV. Enforcing A Real Small Arms Embargo on Sierra Leone

    The other critical factor contributing to the continuation of the 
crisis and the RUF's capacity to commit human rights abuses has been 
the availability of small arms in the region. Weapons have been 
reaching the RUF through Liberia, and Burkina Faso in direct violation 
of a UN arms embargo. It is essential that this flow of weapons be cut 
off if the conflict is to be stopped. This will not be easy; several 
factors limit the international community's ability to control arms 
flows into Africa. With the exception of countries/groups under a UN 
arms embargo--Liberia and Somalia and rebel groups like the RUF (Sierra 
Leone) and UNITA (Angola) and Hutu and ex-FAR extremists (Central 
Africa)--it is not illegal to sell arms to Africa. Even those nations 
and organizations subject to a UN arms embargo easily acquire weapons 
because of the paucity of effective international monitoring and 
policing mechanisms. As a result of these loopholes, no one has been 
prosecuted during the past decade for violating UN arms embargoes in 
Africa.
    Another problem concerns the chronic abuse of end user 
certificates, which supposedly identify the ultimate destination of an 
arms shipment. Recently, for example, Ukraine sent weapons to Burkina 
Faso, listed on accompanying documents as the end user. Ouagadougou 
transshipped these arms to RUF insurgents in Sierra Leone.
    On September 16, 1998, the UN Security Council passed a resolution 
urging member governments to punish those who sold weapons to countries 
under a UN arms embargo, especially those in Africa. However, the lack 
of adequate policing and enforcement mechanisms undermines UN efforts 
to control gray and black arms trafficking to Africa.
    On a regional level, the Economic Community of West African States 
(ECOWAS) on November 1, 1998, announced an ambitious three-year 
moratorium on the importation, export, and manufacture of light weapons 
involving member states (Benin, Burkina Faso, Cape Verde, Cote 
d'Ivoire, The Gambia, Ghana, Guinea, Guinea-Bissau, Liberia, Mali, 
Mauritania, Niger, Nigeria, Senegal, Sierra Leone, and Togo). According 
to some estimates, there are at least 8 million weapons in West Africa, 
with more than half in the hands of insurgents and criminals.
    The success of the ECOWAS and UN initiatives and other similar arms 
control accords will depend on the implementation of strong monitoring 
and policing mechanisms. As of mid-1999, arms trafficking continued 
unabated throughout much of West Africa because ECOWAS lacked the 
resources to establish such systems.\1\
---------------------------------------------------------------------------
    \1\ Scientific America, June 2000.
---------------------------------------------------------------------------
Recommendations
  <bullet> The United States along with its other European partners 
        should work with and support the ECOWAS and UN initiatives in 
        an effort to cut of the flow of small arms to the RUF.

  <bullet> Any violations of the embargo should be publicly 
        investigated, condemned by the Security Council.

  V. Rebuilding, Improving and Extending the Capacity to Protect the 
                              Fundamental

    UNAMSIL, the UN peacekeeping force has at best, performed in a 
disappointing manner. A lack of clarity about its mandate, weak 
management and ambiguous leadership, internal divisions and a lack of 
training undermined the forces ability to protect human rights, it core 
responsibility and reason for being. Despite that UNAMSIL has made a 
considerable contribution to deterring the RUF from operating with 
complete abandon and freedom. This however is not enough. The force 
must improve its performance and it is incumbent on the member States 
of the UN to make those improvements happen.
    The Clinton administration's decision to train 5 Nigerian 
battalions and one Ghanaian battalion to strengthen UNAMSIL is laudable 
if it is going to be done in the correct manner. The training must 
focus on improving the respect and protection of fundamental human 
rights by all of the battalions. U.S. training must also be in 
compliance with the Leahy law and must not train persons guilty of 
committing human rights violations in the past. Further, there must be 
a followup process to ascertain what benefits the training delivered. 
To date no details have been shared with the NGO community about this 
training and there is growing concern that what started out as a well-
intentioned effort might go badly awry and make the situation worse.
    Similar concerns arise with the training of the Sierra Leone Army 
by the military of the United Kingdom. In August several members of the 
AFRC faction, led by former head of state and former RUF ally Johnny 
Paul Koroma, were integrated into the new army structures in senior 
positions. While a possibility remains that some of these persons may 
have committed human rights abuses one would think that there would be 
some hesitation in placing them in positions of power. These concerns 
have to be investigated and justice must be done or else the new Sierra 
Leone Army will be no better then the old one which all too often 
resembled the enemy it was fighting: the RUF.
Recommendations
  <bullet> Expand and strengthen the Human Rights Monitoring Component 
        of UNAMSIL. This is the only way in which the activities of the 
        UNAMSIL forces can be monitored and critical changes can be fed 
        through the right channels to make necessary changes.

  <bullet> Congress must continue to support and fully fund the UN 
        peacekeeping forces in Sierra Leone.

  <bullet> U.S. training for Nigerian and Ghanaian troops must be in 
        compliance with the Leahy law and should be made more 
        transparent. Training should include vetting of candidates, 
        follow on procedures and processes to assess how students 
        perform after the training and details of what type of training 
        must be made public so as to ensure a focus on human rights 
        protection.

    Senator Frist. Thank you. With that, the subcommittee 
stands--before I adjourn, let me thank both of you for being 
here. Again, your opening statements will be made a part of the 
record, and we appreciate your discussion of the issues we 
brought up today, and look forward to continuing our discussion 
informally shortly.
    With that, we stand adjourned.
    [Whereupon, at 11:30 a.m., the subcommittee officially 
adjourned and continued in a public meeting format.]

    Senator Frist. Now, what I'd like to do now that we are 
adjourned is continue the discussion. Nothing has changed, 
except that officially the court reporter does not record what 
we say, although we will be, as a subcommittee, continuing this 
as a public meeting and in fact will, though not officially and 
formally, be taking notes, recording for our own use as we go 
forward.
    Dr. Reno, I know we cut your comments short. Your statement 
is made part of the record. We can either go directly to 
questions, or if you have several points you would like to make 
now, you are welcome to take the next 5 minutes or so and do 
that and Mr. Akwei the same, or we can go straight to 
questions, whichever you would prefer.
    Dr. Reno. I will keep it, probably about a 3-minute brief 
statement.
    Senator Frist. Good.
    Dr. Reno. It is just that in my observations of the 
situation in West Africa one of the problems I see of policy is 
the structure that the U.S. Government has to work within, that 
is that it has to relatively uncritically accept the fact that 
somebody who has been elected as the President of a republic is 
actually the leader of a State, the way that most people would 
conceive of it in the United States, the same thing for Sierra 
Leone, that an international border really is something that's 
real on the ground, but in terms of actually addressing the 
problem in the region, I think that the region as a whole has 
to be looked at as a larger, complex humanitarian emergency, 
and that would include Nigeria as well.
    In my own research one of the things I study is the 
proliferation of private militaries in Nigeria, and that is an 
area that I am especially concerned about, so I think that any 
policy in West Africa that involves intervention of West 
African troops should also be connected to some sort of policy 
very explicitly about the nature of how weapons are used and 
investigation as to what are the fate of the troops who have 
intervened in places in like Sierra Leone.
    I think that would also go a long way toward addressing a 
lot of regional perplexity and anger about U.S. policy in the 
area. There is a perception that U.S. policy is very 
contradictory. It is reflected in this headline of a Sierra 
Leone newspaper, ``Go Back Jesse.'' This is from May of this 
year. They do see a contradiction over the last year in U.S. 
policy, and unfortunately I think that outsiders are 
essentially left with a situation where they really do have to 
help people rebuild the States, and that does involve short-
term action such as mitigating immediate human rights 
violations.
    But I think that looking at it from an idealistic but also 
from a utilitarian point of view, the wisest strategy is one 
that stresses the rule of law and respect for human rights 
norms, and that that has to be connected throughout policy 
within the region lest policy to mitigate a crisis in Sierra 
Leone should also contribute to a crisis in a place like 
Nigeria.
    Senator Frist. Good. Thank you. Mr. Akwei.
    Mr. Akwei. Yes. What I will do is I will just very briefly 
list the different areas that we think are critical, and many 
of those have already been addressed in your questioning, which 
was extremely thorough.
    The first one, of course, is justice and accountability, 
the workings of the special criminal court, the truth and 
reconciliation process, and the very, very hardly referred to 
Sierra Leonean judicial system, which was so effectively 
destroyed, and which will be essential in rebuilding the 
country's future.
    All of these areas need to be not only discussed but 
clarified and that has been one shortcoming that has been 
consistent. We do not know what the Clinton administration is 
pushing, and we get even less clarity from the United Nations. 
Therefore, the people within Freetown or in Sierra Leone 
probably have no idea of what is going on, leading to raised 
expectations and very bitter frustrations and anger. That needs 
to be addressed.
    Another critical issue which has finally begun to penetrate 
the media in the United States is the issue of child soldiers. 
Sierra Leone, the figures range from 10 to 15,000, and that is 
based on not having access to three-quarters of the country. 
How these children are going to be dealt with in the 
international criminal court and their rehabilitation and 
reintegration back into society are going to be critical, or 
else you will have a generation of children who know nothing 
but killing and who are used to being obeyed because they have 
the rifle.
    I have already referred to the issue of conflict diamonds. 
There has been progress on the international level. There is a 
certification program. The diamond-producing countries have 
also endorsed this program. The industry is seemingly for it. 
The critical next step is actual implementation and 
enforcement. That is going to come at the nation-State level, 
and here is an opportunity for Congress and the administration 
to set the example by being the first to pass effective 
legislation banning conflict diamonds.
    The other two areas are ones that my colleague just 
referred to, which is the small arms proliferation in West 
Africa, which is truly one of the major problems destabilizing 
the whole region, and which the United States can plan an 
effective role, and then the final one which you referred to in 
your questions is the whole issue of UNAMSIL and the 
peacekeeping.
    Senator Feingold's questions about the training for the 
Nigerian battalions is extremely important. The capacity to 
take on the RUF does not mean that the peacekeepers have to 
resemble the RUF or behave like the RUF, and unless there are 
many briefings that I am unaware of, no one knows what the 
training composes of or what the vetting process is. Again, 
lack of communication from the administration has been 
extremely disturbing and disappointing.
    I will stop there.
    Senator Frist. Thank you.
    Dr. Reno, could you elaborate or explain how the war may 
continue to spread, and how you believe the United States 
should craft its policy to accommodate that reality, and you 
can be as explicit as you would like to be.
    Dr. Reno. OK. Charles Taylor's political situation is that 
he has a patronage-based network that is based upon taking care 
of fighters. He does not have money, or he does not have 
government positions readily available he can distribute to 
them in a normal patron-client network, so what he does is, he 
builds a power base on the basis of distributing opportunities 
in a war economy. Essentially the clients get to go out and 
collect their own pay, looting communities, including 
communities within Liberia, places like Lofa County. Some of 
the suspicions are that these are associates of Charles Taylor 
as well that are causing some of the mayhem there.
    I think as military pressure is brought to bear against 
Liberians and Sierra Leoneans who are allied with these 
Liberians associated with Charles Taylor, that these people 
will be pressed back further and further into Liberia, that 
they then come back into Monrovia. If a military offensive can 
clear Sierra Leone of rebels, then the rebels are sitting in 
Liberia. Charles Taylor's former allies become a threat to him, 
so his rational policy is to try to keep these guys as far away 
as possible, because if they are out of Monrovia they are more 
under his control. Keep them in Sierra Leone preferably, but 
also in Guinea. So I think the interference in the affairs of 
Guinea is a direct response to military pressure on RUF in 
Sierra Leone.
    So I think in terms of U.S. policy it would be particularly 
important at this point to consider the question of Guinea, and 
Guinea's Government's security. I mean, that is complicated as 
well, because Guinea is scheduled to have elections at the end 
of November, and a major opposition figure in Guinea is 
presently having problems with the law, so the difficulty of 
working with the Guinea Government is that the U.S. Government 
would then run the risk of seeming to support a dictator in the 
eyes of the people of Guinea, so here is another contradiction 
in the conflict. You support order in Guinea, but you also 
support a dictator in Guinea.
    So it is a puzzle with many interlocking pieces, and the 
problem is that you cannot just sit down and say, well, here is 
the thing that we can do in this case to fix it in the next 
month or two. I mean, it is a very incremental process, I 
think, and for that reason it is especially important to have 
the process be guided by long-term fundamental interests that 
represent something akin to the goal that you want to achieve, 
rule of law, respect for human rights abuses.
    I think the case of Guinea yes, it is very important to 
give assistance to the Government of Guinea, but it is also 
very important to keep a focus on that political question of 
what is the fate of a legitimate opposition in Guinea.
    One of the dangers there, too, is that Charles Taylor backs 
another opposition in Guinea. This is a son of the former 
President of Guinea who is reportedly in Monrovia. The is the 
warlord ally, and by removing that more legitimate opposition 
figure the Government of Guinea may consolidate its own power 
in the short run, but it also risks polarizing the situation in 
the same way as we have seen in Sierra Leone and Liberia, where 
that credible political alternative is stripped from the scene.
    Senator Frist. Thank you.
    Senator Feingold.
    Senator Feingold. Thank you to both of you. I want to just 
follow on the comment I made to Secretary Rice. I asked her 
about the trend you can see in West Africa that you are really 
alluding to, wherein violent regimes hold entire civilian 
populations hostage in order to win concessions from the 
international community, and obviously we cannot intervene 
everywhere, as the chairman was suggesting, but how can we 
avoid basically being manipulated by these kind of hostage-
taking tactics that we have seen in West Africa, and was there 
a point in the past where the United States could have taken 
action to stop the chain of events unfolding in the region?
    I would be interested in both of your answers. Dr. Reno.
    Dr. Reno. Yes, I mean, my critique is what I see as a very 
cynical U.S. administration policy of going after the cheap 
piece agreements and so forth, which I think reflect more the 
convenience of domestic politics in the United States rather 
than some sort of long-term West Africa policy.
    There are opportunities in the past that have been missed. 
There could have been some sort of court in Sierra Leone I 
think in 1998. I do not see that there was a reason, 
necessarily, to give peace a chance under the Lome agreement, 
because I think it was fairly well understood at that time what 
the outcome of the agreement would be. I think a 6-year-old 
child on the street in Freetown in Sierra Leone could have 
provided instructive advice to people who were pursuing that 
particular course of action.
    I think in 1996, when the international community was 
helping to mediate the crisis in Liberia, that had the 
negotiators listened to the people who were demonstrating 
outside of the building rather than talking solely to the 
warlords inside the building, that I think that there might 
have been some sort of productive and longer-lasting agreement 
out of that. What they were protesting against was the fact 
that they were excluded from this important political process 
in their own country.
    The international community talks to people who have guns. 
I talk to military people in West Africa all the time, and they 
say, well, we have to negotiate with the people who have guns 
because these are the people who are in a position to create 
disorder, but if I am correct that organizations like Charles 
Taylor and his government are congenitally committed to a 
policy of violence as a means of staying in power, then I think 
that seeking that short-term solution only risks creating 
longer term, more serious problems.
    Senator Feingold. Thank you very much.
    Mr. Akwei.
    Mr. Akwei. I think Professor Reno has said quite a lot of 
what I would say. I would add to that that there was a mistaken 
policy by the administration of trying to anoint certain people 
as the next generation of African leadership. This is in spite 
of the fact that they came to power through violence, and they 
were certainly not very democratic once they were in power, and 
that was the case in Ghana, with the whole laudatory 
relationship with President Rawlings.
    Now, what does that mean for the region? It means that 
there are ways that you can get to power and use any methods 
possible and then become a friend of the United States. That is 
a simplification of the situations on the ground, and it also 
basically marginalizes and weakens civil society, which are the 
real building blocks on which the democracy and human rights of 
the whole region is going to be sustained.
    And I think that we really are in a very difficult 
situation in West Africa. You have the chaos in Cote D'Ivoire. 
You have Sierra Leone, Liberia, which is now spreading to 
Burkina and to Guinea. You have the dictatorship in Gambia, and 
you also have a very weak Nigeria, so there is very, very 
little to reassure one that democracy is thriving in West 
Africa. I think that has been the real frustration with the 
administration's policy, and whatever reasons that they did 
that, unfortunately we are seeing the results of that.
    Senator Feingold. I think those are both very useful 
answers. Thank you.
    Dr. Reno, the former UNAMSIL commander, Major General 
Jetley of India, accused some troops participating in UNAMSIL 
of involvement in illicit diamond-smuggling. Do you think this 
is a significant problem in UNAMSIL, and how might such 
involvement be prevented?
    Dr. Reno. I have to rely on reports of other people who 
have been out in the field, but anecdotally what I have been 
able to pick up from the Nigerian press, which fortunately is 
very vigorous and does send out journalists to investigate 
these sorts of things, is that I see repeated and consistent 
reports about this kind of activity, and talking to the Sierra 
Leoneans there are also very strong suspicions of this as well, 
so I find those claims to be very credible.
    Senator Feingold. Mr. Akwei, the proposed special court for 
Sierra Leone will, of course, appropriately be dealing with the 
so-called big fish involved in crimes against humanity, but 
what is envisioned for others, less prominent figures accused 
of human rights abuses? In other words, what is envisioned in 
terms of tiers of accountability, and given the limited 
capacity of the Sierra Leonean justice system which you have 
alluded to, will these lower tiers require international 
assistance?I
    Mr. Akwei. I think they will. I have been struck by the 
fact that there has been little discussion of the assistance 
programs or plans for the Sierra Leonean judicial system. It 
almost seems to have been left out of the whole picture.
    The two major vehicles that have been discussed which are 
going to receive international assistance are the truth and 
reconciliation process and the international special court. The 
special court, as you said, is only going to try approximately 
25 people, and we are very concerned that most of those 25 
people are going to be RUF.
    Granted, RUF committed some of the more outstanding human 
rights violations, but they were not the only ones. There were 
reports of violations by the peacekeepers from ECOMOG as well 
as the Sierra Leonean Army and the Sierra Leonean militia, and 
that is going to be essential that that court be impartial and 
evenhanded.
    The Truth in Reconciliation Commission [TRC] got sidelined 
by the May disruptions to the peace process and to the basic 
unraveling of Lome. The Special Representative for the U.N. 
High Commissioner for Human Rights recently visited the country 
to see how they can startup the process. They are going to 
hopefully appoint a combination of international and local 
commissioners for the TRC over the next 2 months.
    They are going to set up the modalities and then hopefully 
start running earlier next year, and will have a lifetime of 1 
year to complete their work. That is where the bulk of the 
violations and the violators are going to have to be addressed, 
unless there is a way to rebuild the judicial system overnight, 
which is not going to happen.
    There is a danger that a lot of people will be given 
amnesties or will be given lighter accountability in the 
pursuit of mediation and reconciliation, and also primarily 
because of resources. Is it going to be like the South African 
TRC process? We do not know.
    It could also be more of a community level approach, which 
would have village elders and religious leaders have people 
come forward and talk about what they did, or at least joint 
forgiveness and that kind of thing. It is all very, very much 
up in the air at this point, but we are a little bit 
disappointed, I would have to confess, over the size of what 
the court is going to undertake. We would have hoped that there 
would have been much more outpouring of support and finances so 
that you had a much larger kettle of big fish that you were 
going after.
    Senator Feingold. Thank you, Mr. Chairman.
    Senator Frist. Thank you.
    Mr. Akwei, do you think that the ban on conflict diamonds 
alone can adequately stop the flow of money to Charles Taylor 
and thus weapons and support for the RUF?
    Mr. Akwei. I do not think we see that as the ultimate 
solution, certainly not, but if you do not at least create 
problems for Mr. Taylor's business organization, as Professor 
Reno accurately refers, you do not stop the process, or you do 
not weaken the RUF's capacity, or Mr. Taylor's capacity to 
wreak havoc, and in many ways both the RUF and President Taylor 
are very vulnerable. As we just heard, it is a patronage 
system. If the patronage is disrupted, the recipients will 
become frustrated and threaten Mr. Taylor himself. It is the 
law of the jungle in some ways.
    If we are able to get the certification system online and 
in place as quickly as possible and get the markets where these 
diamonds are shipped to tightened up effectively you can begin 
to cut into the profits that Mr. Taylor makes, and his ability 
to buy weapons. It is not going to solve it overnight, but it 
will certainly disrupt his ability to support the RUF.
    Senator Frist. Dr. Reno, do you believe that the widely 
publicized assertions allegedly made by the former head of 
UNAMSIL concerning illegal diamonds dealing and collusion with 
RUF forces on the part of Nigerian UNAMSIL forces have any 
merit?
    Dr. Reno. Yes, I believe they have merit, but that it was 
not a policy of the Nigerian force to engage in any of these 
activities, that it was more a reflection of lack of command 
and control of Nigerian battalions.
    Senator Frist. Any comment, Mr. Akwei?
    Mr. Akwei. I agree with Dr. Reno. I would say that that is 
essentially the reason why you need an increased human rights 
monitoring capacity, or monitoring capacity of UNAMSIL. The 
allegations are extremely disturbing. In some cases some people 
said there was actually fighting in between the forces.
    Unfortunately, this was not the first time that we had 
heard of peacekeeping troops, certainly--well, not the United 
Nations, but the Nigerian troops in Liberia were certainly hit 
with a lot of allegations of looting the country and looting 
resources, so it is very important that the well-intentioned 
efforts of training the Nigerian battalions and the Ghanian 
battalions be vetted and be openly and constantly scrutinized 
so that nothing goes off-track.
    Senator Frist. Dr. Reno, describe for me--Nigeria's 
strategic interest in Sierra Leone is what?
    Dr. Reno. At this point their strategic interest is 
preventing the collapse of States in their neighborhood, 
because some within the Nigerian administration I think also 
recognize that Nigeria risks the same sort of problem itself, 
and that by controlling these events in other parts of West 
Africa, maybe they can mitigate some of the consequences for 
Nigeria.
    I mean, I argue with them. I say that it is also 
problematic for Nigeria's involvement in controlling State 
collapse in Sierra Leone, because as I pointed out I think that 
Nigerian personnel, if they are not under very careful control 
or instructions or whatever, that these personnel can become 
agents of collapse within Nigeria itself.
    Senator Frist. And is UNAMSIL still a viable operation?
    Mr. Akwei. I would say that it is an essential operation. 
It is certainly not very healthy. It has had a number of very 
disappointing performances. I think the events in May were 
truly astounding, but it has provided some measure of security 
to Freetown in patches, more so than less, in the whole 
peninsula area.
    I would just say that it is extremely important that 
UNAMSIL be made healthy. The effects of a failure there I think 
have much larger implications not only for Sierra Leone but 
also for peacekeeping in general, and certainly as we all work 
on Africa we understand the need for effective peacekeeping in 
Africa.
    Senator Frist. And as you look at the organizational and 
logistical and political challenges with UNAMSIL, how are those 
problems resolved?
    Mr. Akwei. You are asking us to comment on the arcane ways 
of the United Nations, which I think we would both be hesitant 
to say we have a handle on.
    I think what is going to happen, if I understand where your 
question is going, is there will be a new commander, and that 
that will go a long way toward resolving the crisis of 
confidence in leadership. I think that there would be some 
misgivings if this were handed over to a West African or 
particularly a Nigerian commander, but that may be the case, 
but it has to be a person who inspires respect, but who also 
has authority. There cannot be command challenges. That 
disrupts, I would think, any type of military force.
    The mandate question hopefully will be cleared up, and 
there will be a robust engagement not just in reaction to RUF 
engagements, but also to preempt RUF attacks. There is no point 
in trying to fight off the RUF after they have killed 
civilians, when there was an opportunity to stop them from 
attacking civilians in the first place.
    If we do get that kind of clarity, then it is up to the 
command structure in the United Nations to make sure that all 
of the components and all of the battalions comply and perform 
as one unit.
    Dr. Reno. Also I think there is a broader political 
question that they have to address, and that is, if my 
predictions are correct that pursuing war in Sierra Leone 
increases the likelihood of war in Liberia, that to come up 
with some sort of political statement about what the U.N.'s 
response to increased violence in Liberia would be. I would be 
interested to see how the U.N. would respond to that.
    Senator Frist. That is interesting.
    Senator Feingold.
    Senator Feingold. I have just one other question for Mr. 
Akwei. Has the civilian human rights unit of UNAMSIL been taken 
seriously by the United States in the past, and what benchmark 
should Congress look for to determine whether or not that unit 
is being given appropriate attention and resources?
    Mr. Akwei. Well, certainly the monitoring unit has to be 
brought up to its full complement. I think it is still 
undermanned at the moment.
    I would argue that it has not received the due respect and 
seriousness from the administration that was essential to it, 
and that is primarily because of considerations that they were 
going to undermine the tactical capacity of the force. That is 
a much larger issue which I think Professor Reno referred to of 
trying to keep things simple to get achievable results, the 
more easy route.
    It has got to be not only fully funded and fully staffed, 
but a much more public role for the human rights component for 
it to really play the role of monitoring UNAMSIL's performance 
and of making the kind of waves that will change policy. You do 
not want a monitoring component that issues reports and then 
files them. You want them publicized. You want them acted upon 
and enforced by the Security Council, and that is going to need 
a much more visible role for them. I think that is what is 
going to need to happen.
    Senator Frist. Let me thank both Dr. Reno and Mr. Akwei for 
your participation. I apologize for the way the Senate conducts 
business, and just want to reiterate that up to 11:30 that all 
remarks are on the record, part of the subcommittee, the formal 
subcommittee hearing. Over the last 30 minutes it has been an 
informal public meeting, an instructive meeting. I want to 
thank you for your participation.
    This hearing today to me is very important, again, both 
from a historical perspective of current policy, but as we 
prepare for a new administration, new people, the sort of 
policies that are critical to this part of the world must be 
understood fully, even more fully I believe today, in 
preparation for that.
    I want to thank both of you for your participation. Thank 
you.
    Dr. Reno. Thank you.
    Mr. Akwei. Thank you.
    [Whereupon, the public meeting was concluded.]

                                   - 

</pre></body></html>
